<html>
<title> - PROTECTING CHILDREN ON THE INTERNET</title>
<body><pre>[Senate Hearing 110-1103]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1103

                  PROTECTING CHILDREN ON THE INTERNET

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>













                  U.S. GOVERNMENT PRINTING OFFICE
72-157 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2007....................................     1
Statement of Senator Cantwell....................................    39
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     1
Statement of Senator Klobuchar...................................    33
Statement of Senator Nelson......................................     2
Statement of Senator Pryor.......................................    36
Statement of Senator Rockefeller.................................     3
Statement of Senator Stevens.....................................     7
    Prepared statement...........................................     7

                               Witnesses

Allen, Ernie, President and CEO, The National Center for Missing 
  & Exploited Children...........................................    12
    Prepared statement...........................................    14
Finkelhor, Dr. David, Director, Crimes against Children Research 
  Center, University of New Hampshire............................     7
    Prepared statement...........................................    10
Jones, Christine N., General Counsel and Corporate Secretary, The 
  Go Daddy Group, Inc............................................    21
    Prepared statement...........................................    23
Nelson, Lauren, Miss America 2007................................     4
    Prepared statement...........................................     5
Neugent, Lan W., Assistant Superintendent, Technology and Human 
  Resources, Virginia Department of Education....................    17
    Prepared statement...........................................    19

 
                  PROTECTING CHILDREN ON THE INTERNET

                              ----------                              


                         TUESDAY, JULY 24, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Without question, the Internet provides 
extraordinary benefits to our Nation's children. In our 
schools, teachers use the Internet and computer technology to 
enhance instruction and enrich student learning. At home, 
children can use the Internet to exchange e-mail or share 
pictures with friends and family, and to get information on 
virtually any subject imaginable.
    But the power of the Internet is also a source of its 
peril. The New Yorker once humorously poked fun at the 
anonymity of the Internet, commenting that, ``On the Internet, 
nobody knows you're a dog.'' However, there is nothing funny 
when that same anonymity can be used to the advantage of online 
predators and others who would seek to harm children.
    In addition to protecting their children from online 
predators, parents also struggle with the challenges of 
shielding their children from the significant amounts of 
material on the Internet that aren't suitable for children. 
While filtering and monitoring technologies help parents to 
screen out offensive content and to monitor their children's 
online activities, the use of these technologies is far from 
universal and may not be foolproof in keeping kids away from 
adult material. In that context, we must evaluate our current 
efforts to combat child pornography and consider what further 
measures may be needed to stop the spread of such illegal 
material over high-speed broadband connections.
    These are all difficult, yet critically important, issues 
that parents and children face in an information age. If we 
search for a ``silver bullet,'' we will not find it.
    And I will have the rest of my statement made part of the 
record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Without question, the Internet provides extraordinary benefits to 
our Nation's children. In our schools, teachers use the Internet and 
computer technology to enhance instruction and enrich student learning. 
At home, children can use the Internet to exchange email or share 
pictures with friends and family, and to get information on virtually 
any subject imaginable.
    But the power of the Internet is also a source of its peril. The 
New Yorker once humorously poked fun at the anonymity of the Internet, 
commenting that, ``On the Internet, nobody knows you're a dog.'' 
However, there is nothing funny when that same anonymity can be used to 
the advantage of online predators and others who would seek to harm 
children.
    In addition to protecting their children from online predators, 
parents also struggle with the challenges of shielding their children 
from the significant amounts of material on the Internet that are 
unsuitable for children.
    While filtering and monitoring technologies help parents to screen 
out offensive content and to monitor their child's online activities, 
the use of these technologies is far from universal and may not be 
fool-proof in keeping kids away from adult material.
    In that context, we must evaluate our current efforts to combat 
child pornography and consider what further measures may be needed to 
stop the spread of such illegal material over high-speed broadband 
connections.
    These are all difficult, yet critically important issues that 
parents and children face in an information age. If we search for a 
``silver bullet'' solution, we will not find it.
    Rather, our efforts must rely on a multi-layered strategy--one that 
teaches our children about safe and responsible online behavior; one 
that encourages industry action to develop tools that will aid parents 
in their efforts to restrict inappropriate material from their 
children's access; and one that relies on swift and certain action by 
law enforcement officials in finding and punishing those who would use 
the Internet to harm children.
    We have a very distinguished panel of witnesses today to aid our 
review of this subject. I look forward to their testimony.

    The Chairman. May I now recognize the distinguished Senator 
from Florida, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, to my distinguished Chairman.
    One of the most insidious, evil things that is happening in 
America today is how we are hooking kids through the Internet 
to explicit material and Internet pornography. It is a plague 
upon this country. And if we don't take some overt steps to 
change the legality of this activity, we are going to poison 
and infect the minds of our children that will have results 
that will last for generations to come.
    Over the past couple of years, we've passed a number of 
laws, such as the PROTECT Act and the Adam Walsh Act, and made 
it harder for online predators to go after the kids online. But 
the predators are always a step ahead of us.
    We've seen, for example, the activities start to change 
from Internet chat rooms to social networking sites, and, on 
those sites, sexual predators are often able to mask their 
identity and pose as children, themselves, in order to solicit 
the children to reveal personal information and to provide 
pictures and so forth.
    As we work to address these threats, we've got work to do, 
but we also need to look at undertaking a comprehensive effort 
to educate children about the dangers that lurk on the 
Internet. A few states, Mr. Chairman, like Virginia, have 
already created comprehensive lesson plans and curricula to 
teach Internet safety in their schools. And so, I'm working 
with others on this committee to formulate legislation that 
would create a pilot program to provide school districts with 
grants specifically for Internet safety education.
    We teach our kids about school bus safety. We teach them 
about fire safety. We teach them about storm safety. Maybe--one 
of the most insidious diseases--we ought to teach them about 
Internet safety.
    Thank you, Mr. Chairman.
    The Chairman. I thank you, Senator Nelson.
    Now may I recognize the gentleman from West Virginia, 
Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman.
    I like the fact that we're having these hearings, and we're 
having quite a lot of these hearings. And it was very 
interesting to me, in a hearing we had several weeks ago on a 
subject, I think, in which you and I agreed on, that not many 
members of the Commerce Committee agree on. And so, it came 
down to this--the idea of indecency was not simply--it was not 
repellent enough to them, or violence was not repellent enough 
to them, or vulgarity was not repellent enough to them, so that 
they were unwilling to overlook, at least in some form, the 
First Amendment. And it's a little bit like if you're attacked, 
as a country, and you decide that you're in a peaceful mood, so 
you're not going to raise an army, you're not going to fight 
back. I don't think that's the American way. And this meeting 
this morning is very much along the lines of trying to alert 
people to the fact that, you know, child pornography sites on 
the Internet are exploding. They have increased 1,500 percent, 
according to the National Children's Home Report, since 1988, 
which is quite a long time ago, but that's also a pretty big 
increase.
    Everybody's always talking about responsible parents, and I 
think parents want to be responsible, and parents try to be 
responsible, where they can. There are many places where they 
can't be, simply because of the situation of their work or 
their day. Nobody seems to want to talk about the 
responsibility of those who produce all of this, those who pay 
for the ads that allow all of this to go onto either the air, 
if we're talking about television, movies, or onto the 
Internet. In one of the previous hearings, I deliberately 
showed some very vulgar stuff that came right off of 
children's-hour television, and they said, ``How can you 
possibly allow that to go out to children at 10:30 in the 
morning?'' Well, of course, it was on C-SPAN, but that didn't 
make any difference to them. The point was, you couldn't talk 
about anything which would in any way compromise the right of 
children to have their minds polluted, and polluted, in fact, 
in such a way that many of them will be affected by it for the 
rest of their lives.
    So, I think this is a very serious subject. I think it has 
a lot to do with the future of America. I like what I heard 
from the good Senator from Florida, Senator Nelson, what he was 
saying. And I think it's a very unfunny subject that's going to 
require some rather drastic action which is going to be 
displeasing to many. I'm quite prepared to displease the cable 
industry, the movie industry, the networks, and all the rest of 
them, and the Internet industry. You know, I don't think that's 
what's at stake here. I think what's at stake is the health and 
the safety and the disposition of our children as they grow 
older and what it is they carry in their minds, and what habits 
they develop.
    Thank you, Mr. Chairman.
    The Chairman. I thank you very much.
    Before we proceed, I should advise you that I've just 
received a note from the leadership that votes will commence at 
10:30. So, I may have to call a recess at some later time.
    This morning, we have a very distinguished and lovely 
panel. We have the lovely Lauren Nelson, Miss America of 2007; 
Mr. David Finkelhor, Director of Crimes Against Children 
Research Center of the University of New Hampshire; Mr. Ernie 
Allen, President and Chief Executive Officer, National Center 
for Missing & Exploited Children; Mr. Lan W. Neugent, Assistant 
Superintendent for Technology and Human Resources, Virginia 
Department of Education; and Ms. Christine N. Jones, General 
Counsel and Corporate Secretary, The Go Daddy Group, 
Incorporated.
    And it's my privilege and pleasure to call upon the lovely 
Miss America of 2007, Miss Nelson.

         STATEMENT OF LAUREN NELSON, MISS AMERICA 2007

    Ms. Nelson. Thank you very much, Senator.
    As Miss America, I have the opportunity to travel around 
and champion a cause that is very, very important to me. I 
travel about 20,000 miles a month, speaking on the issue of 
Internet safety, because I had a personal incident with the 
issue of Internet Safety.
    As a 13-year-old girl, I was having a sleepover with two of 
my girlfriends, and we decided that we would get into a chat 
room. We were talking with people that we did know and people 
that we didn't know, which was our first mistake. And the 
conversations continued. We were approached by a man who was 
older than us, and he asked us the question, ``ASL,'' which 
means, ``Age, Sex, Location.'' And we gave him the information, 
willingly, not knowing any better. So, within an instant, he 
knew that we were girls, he knew were females, and he knew 
where we were in Oklahoma, which is ultimately enough 
information for him to track us down. Luckily, that did not 
happen, but, about a week later, he sent inappropriate pictures 
of himself, and then we alerted our parents, and they alerted 
the proper authorities.
    These stories happen all the time, and most kids are not as 
lucky as I was and as my friends were. Seventeen million 
children between the ages of 13 and 17 are online, and one in 
five of those children are approached every day by an online 
predator. As you said, social networking sites and chat rooms 
and instant messaging are huge on the Internet, and it's huge 
for our kids. Seventy-one percent of kids have a social 
networking site; 64 percent of those kids actually post 
pictures and videos of themselves on those sites; and over half 
of them leave information on the Internet about where they're 
located and where they live. And this is part of the problem.
    As I said, through my travels I've had the opportunities to 
meet with Ernie Allen, at the National Center for Missing & 
Exploited Children, and I've also been introduced to John 
Walsh, who is also a huge champion of this issue. After my 
introduction to John Walsh, I had the opportunity to work with 
the America's Most Wanted television show and do a sting 
operation. And, as my participation in the sting operation, I 
ultimately was the 14-year-old decoy at the sting house. I 
chatted online with these men, I talked on the phone with them 
and was the 14-year-old girl that met them at the door that 
they followed into the house. So, I've gotten to see, from all 
points of view, how this issue affects kids and how it affects 
these people that are involved with it.
    Through my participation with that operation, I learned a 
little bit more about how predators behave. They prey on the 
most vulnerable of our children, the kids that are having 
problems at home. Maybe they don't have friends at school. But 
these kids divulge this information, and these predators know 
that, and they use emotional tactics to get in there and to 
make sure that they lay the groundwork to make them comfortable 
with themselves so that they can get more information with them 
and ultimately meet them in person.
    I've also had the opportunity to work with Cox 
Communications, and, just last month, had the opportunity to be 
at the Teen Summit, where we had 14 kids from 14 different 
States across the U.S. come and tell us a little bit about 
their Internet habits, what they were worried about, and what 
they wanted us to do, as adults. And one of the neatest things 
that we found that day was that the kids actually want parents 
to be involved with what they're doing on the Internet, they 
want their parents to ask questions, but they want their 
parents to know how to ask the questions, and not to make it an 
interrogation.
    We also learned that cyber-bullying is a huge problem. Not 
only do we have to worry about, now, predators, but we also 
have to worry about kids and how they're using the Internet. 
There was a story that I recently read, that a child was being 
cyber-bullied, and he actually committed suicide because of it, 
and his parents had no idea what was going on. Cyber-bullying 
is a rampant problem on the Internet.
    So, I'm here today to urge you to implement mandatory 
education for our children about Internet safety. I know that 
computer classes are in high schools, are in even middle 
schools, and they're learning ways to use the computer. Why not 
implement some Internet education so that they know the 
dangers, also the opportunities, of the Internet, but also 
learn how to be courteous cyber citizens. We don't allow our 
children to cross the street without knowing how to do it. We 
don't allow our children to drive a car without giving them 
proper education. We shouldn't allow them to go on the Internet 
without knowing the dangers and the opportunities at the same 
time.
    I feel that it's the responsibility of kids, of parents, of 
schools, and of government officials to make a change in this 
problem.
    So, thank you for having me here.
    [The prepared statement of Ms. Nelson follows:]

         Prepared Statement of Lauren Nelson, Miss America 2007
    My name is Lauren Nelson and as Miss America 2007, I am proud to be 
here today to discuss the issue of Protecting Children on the Internet. 
This is a subject that has personally touched my life. When I was 13 
years old, my friends and I were approached on the Internet through a 
chat room. We were young and did not know of the dangers of the 
internet, so we provided this person with our names, ages, gender, and 
our home addresses. A few days later, the individual sent us 
inappropriate photos. We were shocked and disgusted. We then told our 
parents, who immediately addressed this incident and reported it to the 
proper authorities, and luckily we were able to avoid a potentially 
dangerous situation.
    Not all children are as lucky as my friends and I were.
    As Miss America 2007, I have made this issue my personal platform 
and I am here today to champion this cause. During my year of service, 
I am visiting cities across the country, speaking to parents, children 
and the media about the dangers of the Internet and the ways we can 
incorporate Internet Safety into our children's lives.
    Back in the April, I had the opportunity to meet with the National 
Center for Missing and Exploited Children who shared with me their 
knowledge of Internet crimes against children. They introduced me to 
John Walsh and the television producers for Americas Most Wanted. After 
meeting with the producers of AMW, my commitment grew even stronger to 
do something that would bring national attention to this issue and get 
people talking about ways to stop these horrible crimes against 
children.
    When I heard about the Sting Operation being conducted by the 
Suffolk County Police Department and America's Most Wanted, I 
immediately wanted to get involved. My role in the Sting Operation was 
to pose as a 14-year-old girl. I would visit chat rooms and wait to be 
approached. It was shocking to me how quickly a benign conversation 
would turn sexual. The suggestions these men were making coupled with 
the fact that they thought they were chatting with a 14-year old, turns 
my stomach to this day. It was incredibly disturbing to me how young 
teens can so easily be approached on the Internet and ultimately, meet 
face to face with very dangerous individuals who disguise themselves 
through the veil of the computer. Eleven predators showed up in person 
during our Sting Operation . . . and this can not be tolerated in our 
society.
    Upon my last visit to D.C., I had the opportunity to be a part of 
the Teen Summit on Internet Safety with John Walsh and we were amazed 
at the teens' responses to the questions regarding their Internet 
habits. Can you believe that one out of fourteen teens gives out their 
personal information on the Internet without knowing who they are 
chatting with?
    It is clear that our teens are not adequately educated on the 
dangers that the Internet can pose or the consequences they may face by 
sharing personal information with strangers. That is the reason I am 
here today.
    I believe it is time to government to get involved and provide 
mandatory education for all of our children. We need to begin educating 
children as early as possible. We have all heard someone say ``My kids/
grandkids are quicker on the computer then I am.'' It's so true. Kids 
today are growing up using computers from a very early age and using 
them on a daily basis. We don't allow our children to ride their bikes 
without first teaching them about proper safety and we shouldn't let 
them use the computer and access the Internet without taking the same 
precautions.
    I am here today to ask you to please implement mandatory education 
on Internet Safety for all of our children. There should be a mandatory 
class on Internet safety that teaches children about how to use the 
internet, the potential dangers of the internet, and how to avoid these 
dangers.
    As students become more proficient on the computer, they should be 
taught about the various networking sites and chat rooms, and the 
problems that can occur when they mis-use these sites.
    Lastly, they should also learn about being responsible cyber 
citizens. The issue of cyber-bullying is a growing problem in our 
schools today and it must be addressed now. The bullies have moved from 
the playgrounds to the internet, and this new form of harassment cannot 
be tolerated.
    Through proper education, awareness and a national effort supported 
by our legislators, we can all begin to make a difference. I sincerely 
hope that by using my voice as Miss America to bring awareness to this 
subject, that the message of the importance of Internet Safety 
education for our children will be heard. Thank you.

    The Chairman. Ms. Nelson, I've been in the Government for 
many years, and, during that period, I've heard over 1,000 
witnesses, and, without question, your testimony is one of the 
most informative and articulate. I thank you very much.
    Ms. Nelson. Thank you.
    The Chairman. Our next witness is Dr. David Finkelhor.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, would you allow me to put my 
statement in the record, just----
    The Chairman. Without objection.
    Senator Stevens.--as though read? Thank you.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    The Internet is a dynamic space where Americans turn to get 
information, do research, and exchange ideas.
    Given the increasingly important role of the Internet in education 
and commerce, it differs from other media like TV and cable because 
parents cannot prevent their children from using the Internet 
altogether. The headlines continue to tell us of children who are 
victimized online. While the issues are difficult, I believe Congress 
has an important role to play to ensure that the protections available 
in other parts of our society find their way to the Internet. Since 
introducing the Protecting Children Online in the 21st Century Act, my 
staff and I have worked with a wide variety of advocacy groups on this 
topic. In response to the feedback we have received, my staff are 
currently circulating a new draft with four primary goals.
    The new measure would:

  <bullet> direct the Federal Communications Commission to identify 
        industry practices that can limit the transmission of child 
        pornography;

  <bullet> require schools that receive E-Rate funds to provide age-
        appropriate education to their students regarding online 
        behavior, social networking and cyber-bullying;

  <bullet> require the Federal Trade Commission to form a working group 
        to identify blocking and filtering technologies in use and 
        identify, what, if anything could be done to improve the 
        process and better enable parents to proactively protect their 
        children online; and

  <bullet> add the selling or purchasing of children's personal 
        information in connection with a criminal offense in the 
        criminal code as an indictable offense.

    I hope the panelists can give us more insight on what we can do 
within the First Amendment to empower parents and whether this bill 
heads in the right direction.

    The Chairman. Please proceed. Dr. Finkelhor?

  STATEMENT OF DR. DAVID FINKELHOR, DIRECTOR, CRIMES AGAINST 
   CHILDREN RESEARCH CENTER, HORTON SOCIAL SCIENCES CENTER, 
                  UNIVERSITY OF NEW HAMPSHIRE

    Dr. Finkelhor. Yes, thank you very much. Appreciate the 
invitation to be here and your interest in this very important 
issue.
    I'm the director of the Crimes Against Children Research 
Center at the University of New Hampshire.
    Whenever new threats appear on the scene, like SARS or 
school-shooters, it's really crucial to characterize them 
accurately and as soon as possible, because first impressions 
are lasting impressions, and it's often hard to change these 
impressions later on. We need accurate and early 
characterizations to get people focused on the right thing to 
prevent the spread of these dangers.
    Now, in the case of Internet safety, though, I'm afraid 
that we may be off to a poor start on some issues. I think the 
public impression of this crime is really not in sync yet with 
the reality, based on what we know from the research. And it's 
this reality that I think needs to guide our public education 
as we get around to doing it.
    The public image of this crime is that we have Internet 
pedophiles, who have moved from the playgrounds into your 
living room through your Internet service, who are targeting 
young children by pretending to be other children, who are 
lying about their ages, identities, and motives, who are 
tricking kids into providing personal information like their 
names and their addresses, or who harvest these things from 
MySpace, and then, armed with this information, these criminals 
stalk children, abduct them, rape them, or worse.
    But, actually, the research suggests a somewhat different 
reality. And here's what we've found now, based on hundreds of 
cases that we've reviewed from national surveys of law 
enforcement agencies and two large national studies of youth 
Internet users themselves. Incidentally, all this research is 
available in prominent medical and scientific journals. I can 
make them available to you, if you'd like.
    First we found that the predominant online sex crime 
victims are not young children, they are teenagers. And the 
predominant crime scenario does not involve violent stranger 
molesters posing online as other children in order to set up an 
abduction or an assault. It turns out only about 5 percent of 
the online sex crimes against children involve violence when 
meetings occur, and only 3 percent entail an abduction. And, 
interestingly, deception is not a major factor, either. Only 5 
percent of the offenders truly concealed the fact that they 
were adults from their victims, and 80 percent, by contrast, 
were quite explicit about their sexual intentions toward the 
kids in their interactions with them somewhere along the line.
    So, these are not primarily violent sex crimes, but, 
rather, I would characterize them as criminal seductions that 
take advantage of common teenage vulnerabilities. The offenders 
lure teens to meet them for sexual encounters after weeks of, 
very often, quite explicit online conversations that play on 
the teen's desire for romance, adventure, sexual information, 
and understanding. And, as Lauren said, these are often 
troubled youth with histories of family turmoil and physical 
and sexual abuse, as well.
    So, to take a representative case, Jenna, a 13-year-old 
girl from a divorced family, she frequently went to sex-
oriented chat rooms, under the screen name ``evil--girl.'' 
There, she meets a 45-year-old guy, Dave. He flatters her, 
gives her gifts, talks to her about intimate things, and then 
drives across several State lines to meet her for sex; on 
several occasions, in motel rooms. Dave is arrested with her in 
one of these rooms. Jenna resists cooperating with the police.
    And many of the Internet sex crimes have commonalities with 
this case. In 73 percent of the crimes, the youth go to meet 
the offender on multiple occasions, for multiple sexual 
encounters. Half the victims were described by the police 
investigators as ``being in love'' or ``feeling close 
friendship'' with the offender. In a quarter of the cases, the 
victims actually ran away from home to be with the offender.
    And I think these are aspects of Internet crimes against 
youth that haven't been fully incorporated into our thinking 
yet, and they have lots of implications for prevention. So, for 
one thing, we think it means that we have to make sure our 
messages are directed at teens, teens themselves, in language, 
in format, and from sources that they relate to. We've directed 
a lot of our information, up until now, at parents; but, many 
of these teens are under limited parental influence.
    We also have to get beyond blanket warnings about not 
giving out personal information. Our research, in fact, has 
suggested that giving out personal information is not what puts 
kids at risk, neither does having a blog or a personal website 
or a MySpace social networking site. What puts kids in danger 
for these crimes is being willing to talk online about sex, 
with strangers, having multiple risky activities on the Web, 
like going to these chat rooms or sex sites, or interacting 
with a lot of people online whom they don't know. It's the kids 
who move toward, rather than away from, the first signs of 
danger that I think we need to be thinking about.
    So, in order to prevent these crimes, we have to broach 
more awkward and complicated topics that start with an 
acceptance of the fact that some teens are curious about sex. 
They are looking for romance and adventure online. We need to 
talk with them frankly about some of the risky things that they 
may be contemplating; why hooking up with a 32-year-old guy has 
major drawbacks, like jail or bad publicity or public 
embarrassment; why they should be discouraging, not 
patronizing, sites and people who are doing offensive and weird 
things online, fascinating as these things might seem to them.
    We also need to do things like making it easier for teens 
to report the come-ons and the sexual picture requests. We need 
to empower bystanders to take action. There are often friends 
or online observers in chat rooms who may see what's happening, 
but who today aren't doing anything to stop it.
    We could also do things like task some of our Federal 
agencies, like the CDC, OJJDP, organizations like the NCMEC, to 
help design scientifically grounded prevention programs that 
address these issues and that can be disseminated to educate 
youth based on proven effectiveness. And this is important. I 
don't think we should be just telling people to do prevention 
without providing solid guidelines about what really works. 
And, unfortunately, I'm not sure that we know, yet, exactly 
what works.
    We also need law enforcement training, so that they know 
how to handle these cases, and how to deal with the fact that 
the kids in these cases are often reluctant, as witnesses, and 
make prosecution difficult. They need to know how to work with 
them to bring them along.
    We need training for school officials, mental health 
professionals. These are the kind of people who have contact 
with some of these at-risk youth before they get into trouble.
    And then, we need ongoing research just to keep tabs on 
what kids are experiencing and also what law enforcement is 
encountering, because one of the things about the Internet 
environment is that it is a very rapidly changing one, and the 
threats and dangers can morph very quickly, and we have to stay 
on top of these changes. We don't want to be responding to 
yesterday's problems. We don't, also, want to be 
overgeneralizing from a single high-profile incident.
    For example, I think we could use an annual assessment of 
threats to kids in the Internet environment, something like the 
annual Monitoring the Future, national survey about drug usage, 
that gives us clues about new trends in drug usage that may be 
plaguing the youth population.
    But the prevention challenges here aren't easy. Like 
discouraging kids from smoking or drinking, simple scare 
tactics really don't work. The challenge requires some really 
very deft maneuvering within the teen psychology, which is 
often obscure, to figure out what will stick there. And, in the 
meantime, we have to be cautious about promoting messages that 
may simply turn teens off or that betray a completely 
unrealistic take on the Internet, and that may make them less 
receptive to the authoritative sources that we really want them 
ultimately to trust on this issue. I don't think we should 
allow a sense of crisis to mobilize us into misguided crusades.
    So, I'm saying we have to do our homework, we have to do 
our research. So much happens online that's hidden. But if we 
want to stop these Internet crimes, we have to understand the 
details of what's going on. It's as simple and as complicated 
as that.
    Thank you.
    [The prepared statement of Dr. Finkelhor follows:]

  Prepared Statement of Dr. David Finkelhor, Director, Crimes against 
         Children Research Center, University of New Hampshire
    Whenever any new threats appear on the scene, from SARS to school 
shooters, it is so crucial to characterize them accurately and as soon 
as possible, because first impressions are lasting impressions, and it 
is hard to change them later. We need such accurate and early 
characterizations to get people to be focused on the right things to do 
to prevent the spread of the danger.
    Now in the case of Internet sex crimes against children, I'm afraid 
we may already be off to a poor start. The public impression of this 
crime is not in sync with the reality of this crime based on what we 
now know from the research, the reality that I think needs to guide our 
public education.
    The public impression about this crime is that we have ``Internet 
pedophiles", who have moved from the playgrounds into your living room 
through your Internet service, who target young children by pretending 
to be other children, who lie about their ages, identities and motives, 
who trick the children into providing personal information like their 
names and addresses, or who harvest it from MySpace; and then armed 
with this information, these criminals stalk the children, abduct them, 
rape them or worse.
    But our research suggests a different reality. Here's what we have 
found based on hundreds of cases retrieved from national surveys of law 
enforcement agencies, and two large national interview studies of youth 
Internet users themselves, all this research is available now in 
articles in prominent medical and scientific journals.
    First, we have found that the predominant online sex crime victims 
are not young children, but rather teenagers. And the predominant crime 
scenario does not involve violent stranger molesters posing online as 
other children in order to set up an abduction and an assault. Only 5 
percent of the online sex crimes against children involved violence 
when meetings occurred, only 3 percent entailed an abduction.
    Nor is deception a major factor. Only 5 percent of offenders truly 
concealed the fact that they were adults from their victims and 80 
percent by contrast were quite explicit about their sexual intentions 
toward these kids in their interactions with them.
    These are not mostly violent sex crimes but rather criminal 
seductions that take advantage of common teenage vulnerabilities. The 
offenders lure teens to meet them for sexual encounters after weeks of 
very often quite explicit online conversations that play on the teen's 
desires for romance and adventure and sexual information and 
understanding. These teens are often troubled youth with histories of 
family turmoil and physical and sexual abuse as well.
    Jenna was a computer-savvy 13 year old, from a divorced family who 
frequented sex-oriented chat rooms under the screen name ``evil--
girl.'' There she meets a 45 year old, Dave. He flatters her, gives her 
gifts, jewelry, talks about intimate things and drives across several 
states to meet her for sex on several occasions in motel rooms. When 
Dave is arrested with her, Jenna resists cooperating with police.
    Many of the Internet sex crimes have commonalities with this case. 
In 73 percent of these crimes, the youth go to meet the offender on 
multiple occasions, for multiple sexual encounters. Half the victims 
were described by police investigators as being in love with or feeling 
close friendship with the offender. In a quarter of the cases the 
victim actually ran away from home to be with the offender. These are 
aspects of Internet crimes against youth that haven't been fully 
incorporated into our thinking.
    They have lots of implications for prevention. For one thing, we 
think it means that we need to make sure our messages are directed at 
teens, in language and format and from sources they relate to. Teens 
themselves, not primarily parents. Many of these teens may be under 
limited parental influence.
    We also have to go beyond blanket warnings about not giving out 
personal information. Our research with youth suggests that giving out 
personal information is not what puts kids at risk. Nor does having a 
blog or a personal website or frequenting My Space. What puts kids in 
danger for these crimes is being willing to talk about sex online with 
strangers, and having a pattern of multiple risky activities on the 
web--like going to sex sites and chat rooms, and interacting with lots 
of people there. It's kids who move toward rather than away from the 
first signs of danger.
    So to prevent these crimes, we have to take on more awkward and 
complicated topics and start with an acceptance of the fact that some 
teens are curious about sex and looking for romance and adventure 
online: We need to talk to them frankly about the risky things they 
might be contemplating--about why hooking up with a 32 year old has 
major drawbacks, you know, like jail, bad press, public embarrassment ; 
and why they should be discouraging, not patronizing, sites and people 
who are doing offensive things online, fascinating as they may seem.
    We also need to make it easier for teens to report the come-ons and 
the sexual picture requests, and we need to empower by-standers to take 
action--that is, the friends and the online observers in chat rooms, 
who may see this happening but today do little to stop it.
    We need to task agencies that know about prevention, like CDC and 
OJJDP and NCMEC, to help design scientifically grounded prevention 
programs that address these issues and that can then be disseminated to 
educate youth based on their proven effectiveness. We shouldn't just 
tell people to do prevention without providing solid guidelines about 
what really works. And unfortunately, I am not sure we that we know yet 
what really works.
    We need training for law enforcement, so they know how to handle 
these cases and the often reluctant kids whom they need as witnesses to 
prosecute the offenders.
    We also need training for school officials and mental health 
professionals, so they, too, can help some of these at risk kids before 
they get into trouble.
    And then we need ongoing research to keep tabs on what kids are 
experiencing and what law enforcement is encountering, because in this 
rapidly changing technological environment the threats and dangers can 
morph so very quickly. We have to stay on top of them. We don't want to 
be responding to yesterday's problem. We don't want to be over-
generalizing from one single, high profile incident. So for example, I 
think we need an annual assessment of threats to kids in the Internet 
environment, something like the annual Monitoring the Future national 
survey about drug usage.
    The prevention challenges here are not easy. Like discouraging kids 
from smoking or drinking, the simple scare tactics often don't work. 
This challenge too may require very deft maneuvering within the teenage 
psychology to get the message to stick. And in the meantime, we need to 
be cautious about promoting messages that turn teens off or that betray 
a completely unrealistic take on the Internet and which may only make 
them less receptive to the authoritative sources that we want them 
ultimately to trust on these issues. We shouldn't allow a sense of 
crisis to mobilize us into misguided crusades.
    So we have to do our homework. We have to do our research. So much 
of what happens online is so hidden. But if we want to stop these 
Internet crimes, we have to understand the details of what is going on. 
It is as simple and as complicated as that.

    The Chairman. I thank you very much.
    May I now call upon Mr. Ernie Allen.

 STATEMENT OF ERNIE ALLEN, PRESIDENT AND CEO, NATIONAL CENTER 
                FOR MISSING & EXPLOITED CHILDREN

    Mr. Allen. Thank you, Mr. Chairman.
    Mr. Chairman, let me first express my gratitude to this 
Committee, which I know has examined this issue and discussed 
this issue for some time. I was honored to appear before this 
Committee last fall in a similar hearing that resulted in a 
number of initiatives, including Senator McCain and Senator 
Schumer's SAFE Act legislation, which we think provides a major 
step forward. So, we're delighted to be here with you again.
    What I would like to do is talk briefly about what we have 
learned, at the National Center for Missing & Exploited 
Children, about this problem.
    Since 1998, with the mandate of Congress, we have operated 
the CyberTipline, the 911 for the Internet, handling reports 
from the public and from Internet service providers regarding 
child sexual exploitation online. Two weeks ago, we handled our 
500,000th report. And what we have learned is that this is a 
huge and evolving challenge for law enforcement, for the 
public, and for communities.
    The challenges include technology challenges. For example, 
last year, working with six major Internet companies, we 
created a technology coalition in an effort to develop new 
technology to identify illegal images online, and interdict 
them, including creating a database of known images so that we 
can prevent their reaching consumers.
    Another challenge is the growth of digital photography, Web 
cams and the ease of creating images. Dr. Finkelhor talked 
about the fact--and, in his research, demonstrates--that, 
increasingly, many of these images are self-created. Kids are 
taking photos and distributing themselves, having either been 
seduced or at least insufficiently sensitive to the risks which 
they're posing.
    In 1982, the Supreme Court of the United States said that 
child pornography is not protected speech; it's child abuse. 
And, as a result, through law enforcement efforts, it largely 
disappeared from the shelves of adult bookstores and through 
the mail. What we now know is that it went underground, and, 
when it went underground, with the advent of the Internet, it 
exploded. I talk frequently about one case, generated from a 
lead we received at the CyberTipline, that led us to husband-
and-wife entrepreneurs who decided to go into the child 
pornography business. When the site was shut down and they were 
arrested, these people had 70,000 customers, paying $29.95 a 
month and using their credit cards to access graphic images of 
small children being raped and sexually assaulted.
    New technology has enabled child pornographers to stay a 
step ahead of law enforcement. For example, many distributors 
of child pornography are now using peer-to-peer file-sharing 
networks, which do not use a central server, depriving law 
enforcement of an identifiable Internet Protocol, or IP, 
address.
    Wireless technology, with the increase in connectivity 
enabling people to access the Internet through wireless 
devices, has increased the size of this problem.
    In 1998, this Congress mandated electronic service 
providers to report child pornography on their systems to law 
enforcement via the National Center for Missing & Exploited 
Children. The good news is that today 327 electronic service 
providers are regularly reporting. The bad new is, thousands 
more aren't. We have worked with the U.S. Internet Service 
Providers Association, developing best practices regarding 
guidelines to address this problem. The major ISPs are 
reporting, but our concern is that safe havens are being 
created in nonparticipating ISPs, and we need to do more about 
it.
    The U.S. Department of Justice has indicated that the 
underlying statute is flawed, and this is one of the issues we 
discussed with this Committee last year. We need to fix that 
statute so that every ISP is required to report.
    There is another missing link. Currently, the statute 
constrains the National Center, in that we are only able to 
forward those leads to U.S. law enforcement. One major ISP 
tells us, for example, that much of its system is used in 
Brazil. That provider wants to send us information about child 
pornography they find on their customers' accounts to Brazilian 
law enforcement. We're precluded from doing that.
    There is another missing link that we've discussed in the 
past. Once our CyberTipline analysts, who look at these images, 
triage them, use search tools and techniques to try to identify 
who the sender, who the distributor is, and then provide them 
to the appropriate law enforcement agency--once they've done 
that, there can be no prosecution until the date and time of 
that online activity is connected to an actual person. And 
there is currently no requirement for providers to retain 
connectivity logs for their customers on an ongoing basis. Some 
have policies on retention, many of them excellent. But they 
vary, are not implemented consistently, and are far too short a 
time to have meaningful prosecutorial value.
    We've taken some new initiatives. In the area of commercial 
child pornography, through the leadership of Senator Shelby, 
who was then the chairman of the Senate Banking Committee, in 
the Banking Committee, we've created a financial coalition 
against child pornography that includes 29 major companies, 
including MasterCard, Visa, American Express, Bank of America, 
Citibank, Google, Yahoo!, AOL, Microsoft. The goal is to follow 
the money. These are illegal transactions and an illegal use of 
the payment system. Law enforcement gets first crack, but law 
enforcement can't possibly arrest and prosecute everybody, so 
we're trying to use existing law, existing banking law, to stop 
the payments, shut down the accounts, and put these people out 
of business. The goal is to increase the risk and eliminate the 
profitability.
    Mr. Chairman, I don't come before you today with a quick, 
easy solution to the problem, but I can state unequivocally 
that the advent of the Internet has provided predators with 
means to entice children into sexual acts, and sustain--and 
create--a new lucrative illegal commercial enterprise based on 
victimizing children. Federal, State, and local law enforcement 
are more aggressive in this effort than ever before. There is a 
new Justice Department initiative, called Project Safe 
Childhood, which is attacking this problem. But they face 
significant barriers. I hope that you, in this Committee, can 
help us remove some of those barriers and help us identify and 
prosecute more of the individuals who are preying upon children 
online.
    [The prepared statement of Mr. Allen follows:]

         Prepared Statement of Ernie Allen, President and CEO, 
          The National Center for Missing & Exploited Children
    Mr. Chairman and distinguished Members of the Committee, as 
President of the National Center for Missing & Exploited Children 
(NCMEC), I welcome this opportunity to appear before you to discuss 
crimes against children on the Internet. NCMEC joins you in your 
concern for the safety of the most vulnerable members of our society 
and thanks you for bringing attention to this serious problem facing 
America's communities.
    Let me first provide you with some background information. NCMEC is 
a not-for-profit corporation, mandated by Congress and working in 
partnership with the U.S. Department of Justice as the national 
resource center and clearinghouse on missing and exploited children. 
NCMEC is a true public-private partnership, funded in part by Congress 
and in part by the private sector. Our Federal funding supports 
specific operational functions mandated by Congress, including a 
national 24-hour toll-free hotline; a distribution system for missing-
child photos; a system of case management and technical assistance to 
law enforcement and families; training programs for Federal, state and 
local law enforcement; and programs designed to help stop the sexual 
exploitation of children.
    These programs include the CyberTipline, the ``9-1-1 for the 
Internet,'' which serves as the national clearinghouse for 
investigative leads and tips regarding crimes against children on the 
Internet. The Internet has become a primary tool to victimize children 
today, due to its widespread use and the relative anonymity that it 
offers child predators. Our CyberTipline is operated in partnership 
with the Federal Bureau of Investigation (``FBI''), the Department of 
Homeland Security's Bureau of Immigration and Customs Enforcement 
(``ICE''), the U.S. Postal Inspection Service, the U.S. Secret Service, 
the U.S. Department of Justice's Child Exploitation and Obscenity 
Section and the Internet Crimes Against Children Task Forces, as well 
as state and local law enforcement. Leads are received in seven 
categories of crimes:

  <bullet> possession, manufacture and distribution of child 
        pornography;

  <bullet> online enticement of children for sexual acts;

  <bullet> child prostitution;

  <bullet> child-sex tourism;

  <bullet> child sexual molestation (not in the family);

  <bullet> unsolicited obscene material sent to a child; and

  <bullet> misleading domain names.

    These leads are reviewed by NCMEC analysts, who visit the reported 
sites, examine and evaluate the content, use search tools to try to 
identify perpetrators, and provide all lead information to the 
appropriate law enforcement agency. The FBI, ICE and Postal Inspection 
Service have ``real time'' access to the leads, and all three agencies 
assign agents and analysts to work directly out of NCMEC and review the 
reports. The results: in the 9 years since the CyberTipline began 
operation, NCMEC has received and processed more than 500,000 leads, 
resulting in hundreds of arrests and successful prosecutions.
    However, despite this progress the use of the Internet to victimize 
children continues to present challenges that require constant 
reassessment of our tools and methods. As technology evolves, so does 
the creativity of the predator. New innovations such as webcams and 
social networking sites are increasing the vulnerability of our 
children when they use the Internet. New technology to access the 
Internet is used by those who profit from the predominantly online 
market in child pornography and seek to evade detection by law 
enforcement.
    Today, NCMEC is working with leaders in many industries involved 
with the Internet in order to explore improvements, new approaches and 
better ways to attack the problems. We are also bringing together key 
business, law enforcement, child advocacy, governmental and other 
interests and leaders to explore ways to more effectively address these 
new issues and challenges.
    Last year, six Internet industry leaders, AOL, Yahoo, Google, 
Microsoft, Earthlink and United Online, initiated a Technology 
Coalition to work with us to develop and deploy technology solutions 
that disrupt the ability of predators to use the Internet to exploit 
children or traffic in child pornography. The Technology Coalition has 
four principal objectives:

        1. Developing and implementing technology solutions;

        2. Improving knowledge sharing among industry;

        3. Improving law enforcement tools; and

        4. Researching perpetrators' technologies to enhance industry 
        efforts.

    Bringing together the collective experience, knowledge and 
expertise of the members of this Coalition, and applying it to the 
problem of child sexual exploitation, is a significant step toward a 
safer world for our children.
    In June 2006, NCMEC hosted a Dialogue on Social Networking Sites 
here in Washington, D.C. We did this to respond to the increased 
attention to these hugely popular sites that permit users to create 
online profiles containing detailed and highly personal information, 
which can be used by child predators to forge a ``cyber-relationship'' 
that can lead to a child being victimized. This vigorous and 
informative discussion brought together leaders from the technology 
industry, policymakers, law enforcement, academia and children's 
advocacy groups. We learned a lot about why children are drawn to these 
sites, the technological capabilities and limitations of the site 
operators who are concerned about the safety of their users, and how 
law enforcement sees these sites as both a danger to kids and a useful 
source of information in investigating cases. NCMEC is continuing to 
work with several social networking sites on ways to make children less 
vulnerable.
    Another challenge is the widespread use of the webcam, which offers 
the exciting ability to see the person you're communicating with over 
the Internet. While this has many benefits, such as allowing divorced 
parents to have ``online visitation'' with their children in distant 
states, it, too, can be used to exploit children. The reports to our 
CyberTipline include incidents involving children and webcams. Many 
children are victimized inadvertently, by appearing on their webcams 
without clothes as a joke, or on a dare from friends, unaware that 
these images may end up in a global commercial child pornography 
enterprise. Other children are victims of blackmail, threatened with 
disclosure to friends and family if his or her `performance' before the 
webcam doesn't become more sexually explicit. Too much technology and 
too much privacy, at a sexually curious age, can lead to disastrous 
consequences.
    But the most under-recognized aspect of the Internet is how it is 
used to distribute child pornography. It is not an exaggeration to 
state that this is a crisis of global proportions.
    Following the Supreme Court's 1982 decision in Ferber v. New York, 
holding that child pornography was not protected speech, child 
pornography disappeared from the shelves of adult bookstores. The U.S. 
Customs Service launched an aggressive effort to intercept it as it 
entered the country and the U.S. Postal Inspection Service cracked down 
on its distribution through the mails. However, child pornography did 
not disappear, it went underground.
    That lasted until the advent of the Internet, when those for whom 
child pornography was a way of life suddenly had a vehicle for 
networking, trading and communicating with like-minded individuals with 
virtual anonymity and little concern about apprehension. They could 
trade images and even abuse children ``live,'' while others watched via 
the Internet.
    Then law enforcement began to catch up, and enforcement action came 
to the Internet. The FBI created its Innocent Images Task Force. The 
Customs Service expanded its activities through its Cyber Crimes 
Center. The Postal Inspection Service continued and enhanced its strong 
attack on child pornography. Congress created and funded the Internet 
Crimes Against Children (ICAC) Task Forces at the state and local 
levels across the country. There are currently forty-six ICAC Task 
Forces and the Adam Walsh Act, enacted 1 year ago, will create ten 
more. Child pornography prosecutions and convictions have increased.
    But we should have no illusions about the impact of these 
initiatives on what has become a financially lucrative industry.
    The Internet has revolutionized the commercial markets for 
virtually every type of goods and services that can be sold. 
Unfortunately, this also includes goods and services that subsist on 
the victimization of children. In a recent case investigators 
identified 70,000 customers paying $29.95 per month by credit card for 
Internet access to graphic images of small children being sexually 
assaulted. In our experience, most of the consumers are here in the 
U.S., and we have found that of the 820 identified victims in NCMEC's 
Child Victim Identification Program, a startling number of these 
children are also here in the U.S.
    A recent report by McKinsey Worldwide estimated that today 
commercial child pornography is a multi-billion-dollar industry 
worldwide, fueled by the Internet. There is also strong evidence of 
increasing involvement by organized crime and extremist groups. Its 
victims are becoming younger. According to NCMEC data, 19 percent of 
identified offenders had images of children younger than 3 years old; 
39 percent had images of children younger than 6 years old; and 83 
percent had images of children younger than 12 years old. Reports to 
the CyberTipline include images of brutal sexual assaults of toddlers 
and even infants. These are images that no one here could previously 
even imagine. But they have become all-too-common in the new world of 
child pornography and child sexual exploitation. Children have become, 
simply put, a commodity in this insidious commercial enterprise.
    New technology has allowed this industry to stay one or two steps 
ahead of law enforcement. Many distributors of child pornography are 
using peer-to-peer file-sharing networks, which does not use a central 
server, thereby depriving law enforcement of an identifiable Internet 
Protocol (IP) address, which is key evidence in investigating and 
prosecuting these cases. When we receive these reports to the 
CyberTipline, it is almost impossible to identify the perpetrators 
responsible for trading the illegal files. The anonymity of recent 
peer-to-peer technology has allowed individuals who exploit children to 
trade images and movies featuring the sexual assault of children with 
very little fear of detection.
    Wireless access to the Internet permits predators to ``piggyback'' 
on others' wireless signals, trade images, and remain undetected by law 
enforcement because of the difficulty in locating the piggybacking 
activity, compounded by the increasing use of wireless access cards 
manufactured overseas which use radio channels not authorized by the 
Federal Communications Commission. Wireless technology has also enabled 
the trading of these images via cell phone--making the operation of 
this enterprise not only mobile, but also able to fit inside a pocket 
and easily discarded to avoid detection.
    Another obstacle to overcome is the reporting of child pornography 
found on customers' accounts by electronic service providers (ESPs) to 
NCMEC. Though apparently mandated by Federal statute, 42 U.S.C. 
Sec. 13032, not all ESPs are reporting and those that do report are not 
sending uniform types of information, rendering some reports useless. 
Some ESPs take the position that the statute is not a clear mandate and 
that it exposes them to possible criminal prosecution for distributing 
child pornography themselves. In addition, because there are no 
guidelines for the contents of these reports, some ESPs do not send 
customer information that would allow NCMEC to identify a law 
enforcement jurisdiction. As a result, potentially valuable 
investigative leads are left to sit in the CyberTipline database with 
no action taken. Together with the U.S. Internet Service Providers 
Association (USISPA) we developed `best practices' reporting guidelines 
to address this problem. The major ESPs are following these 
guidelines--for example, AOL, Microsoft, and Yahoo. However, these are 
voluntary rather than mandatory, so there is no enforcement mechanism 
for those who choose not to follow them.
    This reporting statute also constrains NCMEC in that it permits us 
to forward the CyberTipline leads only to U.S. law enforcement. This is 
a real problem, considering the global nature of the Internet. As an 
example, there is a portion of one major ESP system based in the U.S. 
that is used primarily in Brazil. This ESP wants us to send information 
about child pornography they find on their customers' accounts to 
Brazilian law enforcement. But we are prohibited from doing so.
    There is also another necessary yet missing link in the chain from 
detection of child pornography to conviction of the distributor. Once 
the CyberTipline analysts give law enforcement all the information they 
need about specific images traded on the Internet, there can be no 
prosecution until the date and time of that online activity is 
connected to an actual person. There is currently no requirement for 
ESPs to retain connectivity logs for their customers on an ongoing 
basis. Some have policies on retention but these vary, are not 
implemented consistently, and are for too short a time to have 
meaningful prosecutorial value. One example: law enforcement discovered 
a movie depicting the rape of a toddler that was traded online. In 
hopes that they could find the child by finding the producer of the 
movie, they moved quickly to identify the ESP and subpoenaed the name 
and address of the customer who had used that particular IP address at 
the specific date and time. The ESP was not able to provide the 
connectivity information. To this day, we have no idea who or where 
that child is--but we suspect she is still living with her abuser.
    We think this is just not acceptable.
    One of our new initiatives treats this industry like the business 
that it is. Our goal: to eradicate commercial child pornography. Our 
mission: to follow the money. This new initiative is the Financial 
Coalition Against Child Pornography.
    First, we will aggressively seek to identify illegal child 
pornography sites with method of payment information attached. Then we 
will work with the credit card industry to identify the merchant bank. 
Then we will stop the flow of funds to these sites. The Coalition is 
made up of major financial and Internet companies, including 
MasterCard, Visa, American Express, Bank of America, Citibank, 
Microsoft, America Online, Yahoo and many others. We are working to 
bring new members into the Coalition every day, especially 
international financial institutions.
    The first priority in this initiative is criminal prosecution, 
through referrals to Federal, state, local or international law 
enforcement in each case. However, our fundamental premise is that it 
is impossible to arrest and prosecute everybody. Thus, our goal is 
twofold:

        1. To increase the risk of running a child pornography 
        enterprise; and

        2. To eliminate the profitability.

    NCMEC is working hand-in-hand with both law enforcement and 
industry leaders to explore the best techniques for detection and 
eradication, and serves as the global clearinghouse for this effort, 
sharing information in a truly collaborative way.
    Mr. Chairman, I don't come before you today with a quick, easy 
solution to the problem of child sexual exploitation, but I can state 
unequivocally that the advent of the Internet has provided predators 
with the means to both entice children into sexual acts and sustain a 
lucrative commercial enterprise that demands the heinous victimization 
of children. We suspect that the problem of child pornography will 
continue to increase as distributors search for lower risk avenues with 
a lower possibility of being detected. Federal, state and local law 
enforcement are more aggressive than ever before, but they must 
overcome significant barriers. I hope that you can help us remove some 
of those barriers and help us identify and prosecute those who are 
misusing the Internet for insidious, criminal purposes. Too many child 
pornographers feel that they have found a sanctuary, a place where 
there is virtually no risk of identification or apprehension.
    NCMEC urges lawmakers, law enforcement and the public to take a 
serious look at the dangers threatening our children today, and to move 
decisively to minimize the risks posed by those who exploit new 
technology and target our children.
    Now is the time to act.
    Thank you.

    The Chairman. I thank you very much, Mr. Allen. And we'll 
try our best to do that.
    Mr. Allen. Thank you, Sir.
    The Chairman. Our next witness, Mr. Lan Neugent, Assistant 
Superintendent for Technology and Human Resources.

                  STATEMENT OF LAN W. NEUGENT,

   ASSISTANT SUPERINTENDENT, TECHNOLOGY AND HUMAN RESOURCES, 
                VIRGINIA DEPARTMENT OF EDUCATION

    Mr. Neugent. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Committee, my name is Lan 
Neugent, and I am the Assistant Superintendent for Technology 
and Human Resources at the Virginia Department of Education, 
and past Chairman of the State Educational Technology Directors 
Association, SETDA. I am very pleased to be here today to share 
Virginia's perspective on education's role in protecting 
children on the Internet.
    House Bill 58, introduced by Delegate William H. Fralin, 
Jr., and passed by the 2006 Virginia General Assembly, was 
signed into law by Governor Timothy M. Kaine on March 7, 2006. 
This new law made Virginia the first State in the Nation to 
require Internet safety to be integrated into all instructional 
programs statewide. The law expanded the existing statute, 
which was adopted in 1999. The existing statute defined 
acceptable use policies and practices; the new law added the 
requirement that the Superintendent of Public Instruction issue 
Internet safety guidelines to school divisions. I do have a 
copy of this, and I do believe that it's in your packet.
    Dr. Tammy McGraw, Director of the Department of Education's 
Office of Educational Technology, and her staff were charged 
with developing these guidance documents for local school 
divisions. The overall approach was to be one of balance, 
recognizing the need to address the rights and the risk and the 
highlights and the benefits of the use of the Internet in 
schools. We wanted this guidance to reflect our belief that the 
Internet offers unprecedented access to resources that can 
enhance learning, research, communication, exploration of new 
ideas, and expressions of creativity. At the same time, we 
wanted educators and students to understand that the dangers 
associated with the Internet are real, significant, and 
constantly changing.
    To develop the guidelines, agency staff consulted with 
students, parents, educators, researchers, law enforcement 
officials, local and State and Federal representatives, and 
independent nonprofit organizations. These consultations, and 
an extensive review of research and resource materials, led to 
the following essential conditions regarding an effective 
Internet safety program:
    First, Internet safety must be a shared responsibility. 
Children and the many adults in their lives all play important 
parts in ensuring safe and responsible Internet use. In 
developing the guidelines for schools, we identified key issues 
that each role in every group, from students to board members, 
should know.
    Second thing, Internet safety must be integrated into the 
curriculum and be part of teachers' daily practice. Our work 
showed that Internet safety cannot be covered in a single 
lesson or a unit by use of a single program or resource. The 
Internet is pervasive in children's lives. Strategies for 
ensuring safe and responsible use must reflect the many ways in 
which children experience the Internet. We developed a guide to 
provide teachers with strategies for addressing Internet safety 
in the context of Virginia's standards of learning.
    There are many high-quality resources available to schools 
free of charge; however, schools and family need to be aware 
that they exist. We have reviewed many excellent resources that 
address various aspects of Internet safety for schools and 
families. Our greatest challenges are helping schools identify 
the most appropriate resources and assuring that they have the 
ability to use these resources effectively to cover the full 
spectrum of issues.
    Unlike books and other traditional resources, Internet 
content changes every second of every day. As a result, we 
routinely apprise school divisions of new developments related 
to Internet safety. Our information briefs provide summaries of 
the most current research. This is a continued process, due to 
the ever-changing risk of the Internet.
    Technical assistance and professional development must be 
available to school divisions as they design locally 
appropriate programs for their students. Each community is 
unique, and Internet safety issues tend to vary greatly from 
one part of the Commonwealth to another. We provide technical 
assistance as divisions move forward with designing their 
comprehensive Internet safety programs. Divisions request 
assistance from the State Department of Education on a wide 
range of Internet-related issues; most notably, they struggle 
with the need to balance safety and security with instructional 
innovation. Social networking sites and blogs have been 
particularly challenging for school divisions.
    Virginia is fortunate to have approximately 1500 
instructional technology resource teachers. These are folks who 
work directly with schools to help integrate technology into 
instruction. These highly skilled educators receive extensive 
professional development and support from our agency. They, in 
turn, provide training and support for the teachers in their 
schools. Library media specialists and school administrators 
also receive development through conferences and regional 
events. These educators are essential to our Internet safety 
program implementation. Program implementation must be 
monitored to assure quality and effectiveness.
    To assist division superintendents, we have developed a set 
of rubrics--that's also in your packet--that measure the degree 
to which each division has adapted its acceptable-use policy 
and implemented an Internet safety program. These tools enable 
divisions to track their progress and determine technical 
assistance needs.
    Also, public-private cooperation is essential. Protecting 
children on the Internet is a daunting task, as you heard from 
many of the speakers, that requires the commitment of everyone. 
We have been particularly successful in working with other 
organizations, both private and public, to advance Internet 
safety in Virginia. Attorney General Bob McDonnell launched 
an--Youth Internet Safety Task Force, comprised of leaders from 
prominent Internet companies, educators, parents, elected 
officials, and law enforcement, to identify solutions for the 
growing problem of sexual offenders and other criminals who use 
the Internet to target children and teenagers in the 
Commonwealth. This group's work has formed the basis for 
significant legislation and programs to advance Internet safety 
in Virginia.
    We have also worked closely with Bedford County Sheriff 
Michael J. Brown on the Operation Blue Ridge Thunder Internet 
Crimes Against Children Task Force, as well as Jane Madison's 
University Institute for Infrastructure and Information 
Assistance, the National Cyber Security Alliance, and other 
organizations devoted to Internet safety and security. 
Furthermore, we have engaged in direct dialogues with companies 
to help shape their products and their services to address 
Internet safety concerns.
    All of these efforts are converging toward one principal 
objective: maximizing the potential of the Internet, while 
ensuring the safety of each student. Safe and responsible 
Internet use is at the forefront of our efforts, even as we 
develop cutting-edge Internet applications that range from 
online testing to studying astronomy in the daytime through a 
remotely controlled telescope in Australia.
    Thank you.
    [The prepared statement of Mr. Neugent follows:]

    Prepared Statement of Lan W. Neugent, Assistant Superintendent, 
    Technology and Human Resources, Virginia Department of Education
    Mr. Chairman and Members of the Committee, my name is Lan Neugent 
and I am the Assistant Superintendent for Technology and Human 
Resources at the Virginia Department of Education and past Chairman of 
the State Educational Technology Directors Association. I am pleased to 
be here today to share Virginia's perspective on education's role in 
protecting children on the Internet.
    House Bill 58, introduced by Delegate William H. Fralin, Jr., and 
passed by the 2006 Virginia General Assembly, was signed into law by 
Governor Timothy M. Kaine on March 7, 2006. This new law made Virginia 
the first state in the Nation to require Internet safety to be 
integrated into all instructional programs statewide. The law expanded 
the existing statute, which was adopted in 1999. The existing statute 
defined acceptable use policies and practices; the new law added the 
requirement that the Superintendent of Public Instruction issue 
Internet safety guidelines to school divisions.
    Dr. Tammy McGraw, Director of the Department of Education's Office 
of Educational Technology, and her staff were charged with developing a 
guidance document for local school divisions (See Appendix 
A<SUP>*</SUP>). The overall approach was one of balance, recognizing 
the need to address the risks and highlight the benefits of Internet 
use in schools. We wanted this guidance to reflect our belief that the 
Internet offers unprecedented access to resources that can enhance 
learning, research, communications, exploration of new ideas, and 
expressions of creativity. At the same time, we wanted educators and 
students to understand that the dangers associated with the Internet 
are real, significant, and constantly changing.
---------------------------------------------------------------------------
    \*\ All appendices to this document are retained in Committee files 
and can be found at www.doe.virginia.gov.
---------------------------------------------------------------------------
    To develop the guidelines, agency staff consulted with students; 
parents; educators; researchers; law enforcement; local, state and 
Federal representatives; and independent nonprofit organizations. These 
consultations and an extensive review of research and resource 
materials led to the following essential conclusions regarding an 
effective Internet safety program:
Internet safety must be a shared responsibility.
    Children and the many adults in their lives all play important 
roles in ensuring safe and responsible Internet use. In developing the 
guidelines for schools, we identified key issues that each role group--
from students to school board members--should know.
Internet safety must be integrated into the curriculum as part of a 
        teacher's daily practice.
    Our work showed that Internet safety cannot be covered in a single 
lesson or unit or by using a single program or resource. The Internet 
is pervasive in children's lives; strategies for ensuring safe and 
responsible use must reflect the many ways in which children experience 
the Internet. We developed a guide to provide teachers with strategies 
for addressing Internet safety in the context of Virginia's Standards 
of Learning (See Appendix B).
There are many high-quality resources available to schools free of 
        charge; however, schools and families need to be aware that 
        they exist.
    We have reviewed many excellent resources that address various 
aspects of Internet safety for schools and families. Our greatest 
challenges are helping schools identify the most appropriate resources 
and ensuring they have the ability to use these resources effectively 
to cover the full spectrum of issues. Unlike books and other 
traditional resources, Internet content changes every second of every 
day. As a result, we routinely apprise school divisions of new 
developments related to Internet safety. Our information briefs provide 
summaries of the most current research (See Appendix C). This is a 
continual process due to the ever-changing risks on the Internet.
Technical assistance and professional development must be available to 
        school divisions as they design locally appropriate programs 
        for their students.
    Each community is unique, and Internet safety issues tend to vary 
greatly from one part of the Commonwealth to another. We provide 
technical assistance as divisions move forward with designing their 
comprehensive Internet safety programs. Divisions request assistance 
from the state Department of Education on a wide range of Internet-
related issues; most notably, they struggle with the need to balance 
safety and security with instructional innovation. Social networking 
sites and blogs have been particularly challenging for school 
divisions.
    Virginia is fortunate to have approximately 1,500 instructional 
technology resource teachers who work directly in schools to help 
integrate technology into instruction. These highly skilled educators 
receive extensive professional development and support from our agency. 
They, in turn, provide training and support for the teachers in their 
schools. Library media specialists and school administrators also 
receive professional development through conferences and regional 
events. These educators are essential to our Internet safety program 
implementation.
Program implementation must be monitored to ensure quality and 
        effectiveness.
    To assist division superintendents, we have developed a set of 
rubrics that measure the degree to which each division has adapted its 
acceptable use policy and implemented an Internet safety program (See 
Appendix D). These tools enable divisions to track their progress and 
determine technical assistance needs.
Public-private collaboration is essential.
    Protecting children on the Internet is a daunting task that 
requires the commitment of everyone. We have been particularly 
successful in working with other organizations, both public and 
private, to advance Internet safety in Virginia. Attorney General Bob 
McDonnell launched a Youth Internet Safety Task Force comprised of 
leaders from prominent Internet companies, educators, parents, elected 
officials, and law enforcement to identify solutions to the growing 
problem of sexual offenders and other criminals who use the Internet to 
target children and teenagers in the Commonwealth. This group's work 
has formed the basis for significant legislation and programs to 
advance Internet safety in Virginia.
    We have worked closely with Bedford County Sheriff Michael J. Brown 
and the Operation Blue Ridge Thunder Internet Crimes Against Children 
Task Force as well as James Madison University's Institute for 
Infrastructure and Information Assurance, the National Cyber Security 
Alliance, and other organizations devoted to Internet safety and 
security. Furthermore, we have engaged in direct dialogues with 
companies to help shape their products and services to address Internet 
safety concerns.
    All of these efforts are converging toward one principal objective: 
maximizing the potential of the Internet while ensuring the safety of 
each student. Safe and responsible Internet use is at the forefront of 
all our efforts, even as we develop cutting-edge Internet applications 
that range from online testing to studying astronomy in the daytime 
through a remotely controlled telescope in Australia.

    The Chairman. I thank you very much.
    And may I now call upon Ms. Christine Jones.
    Ms. Jones?

STATEMENT OF CHRISTINE N. JONES, GENERAL COUNSEL AND CORPORATE 
              SECRETARY, THE GO DADDY GROUP, INC.

    Ms. Jones. Good morning, Chairman Inouye and Members of the 
Committee. I'm Christine Jones, General Counsel and Corporate 
Secretary of The Go Daddy Group.
    Go Daddy's principal business is domain name registration. 
We are currently the largest domain name registrar in the 
world. We have something on the order of 22 million domain 
names under management. We register a domain name once every 2 
seconds, or less. And every single one of those domain names 
has the potential to become a website that children can look 
at. The amount of data--as you mentioned in your opening 
statement, Mr. Chairman--online is simply overwhelming, and we 
cannot look at all of it to make sure that it's OK.
    I want to make a distinction between a domain name 
registrar and an Internet service provider, just to make the 
point. For example, if you wanted to register 
ChairmanInouye.com, you could go to Go Daddy and register that 
name, except that I already registered it, in anticipation of 
this hearing, so now you can't, but, nevertheless, that's what 
we do.
    [Laughter.]
    Ms. Jones. OK. I'll give it to you at the end of the day. 
OK. And Mr. Stevens, you know we went through this once before, 
as well. A domain name--and I gave him a domain name, for the 
record.
    [Laughter.]
    Ms. Jones. A domain name is different from a traditional 
ISP, in that the ISP provides the access to the Internet, so 
through a DSL line or a cable modem or even an old-fashioned 
dial-up connection. The registrar provides the entrance to 
establishing the presence on the Internet. So, in your case, 
ChairmanInouye.com.
    We also host a substantial volume of Internet data. That 
means once you build your Website, you have to have a computer 
to put it on. We provide those computers, and we have a whole 
lot of them. So, we end up seeing a lot of what Ms. Nelson and 
Dr. Finkelhor and Mr. Allen and Mr. Neugent talked about, on a 
daily basis. And we devote substantial resources to working 
with law enforcement, the National Center, other watchdog 
groups, and others, to help protect children from Internet 
predators.
    This can be frustrating, because it seems like the number 
of ``bad guys'' is growing faster than the number of ``good 
guys.'' And we count ourselves among the ``good guys,'' by the 
way.
    Six years ago, when I joined Go Daddy, we had one guy, one 
employee, working on these types of issues. Today, we have two 
full departments that run 24 hours a day, 7 days a week, with 
dozens of employees that do nothing but try to respond to 
issues of child pornography, child modeling, online harassment, 
cyber bullying, inappropriate content, outright child 
predators, like the one that Ms. Nelson talked about, and other 
issues affecting children and their use of the Internet. It is 
a huge and growing, menacing problem.
    And, despite our efforts and the efforts of many of my 
esteemed colleagues here, there are still grave dangers for 
children who spend time online, some of which Senator Nelson 
mentioned in his statement.
    Not one single day passes when we don't have at least one 
example of something nefarious happening. I mean, every single 
day. These include school districts calling us, asking us to 
remove websites where children are being harassed or 
threatened; parents calling us, because their children have 
been approached by adults in online communication communities; 
videotaped kidnappings--I'm not kidding you--some real, some 
not--that we work with the FBI on; and so on and so on and so 
on.
    There's one very real example I wanted to share to make a 
point, that we must educate children and parents about the 
risks of sharing information about themselves online.
    A few months ago, we got a call from MySpace, the social 
networking community. They told us that there was a website 
online that had about 60,000--that's six with a zero, 60,000--
MySpace user name and passwords posted on the website for 
everybody in the whole world to see. MySpace asked us to take 
that website down. And we thought, OK, that sounds like a good 
idea, we don't want MySpace user names and passwords out on the 
Internet for people to see. Most of those are run by children. 
A lot of those children put information about themselves out 
there. So, we took it down.
    The gentleman who ran the website immediately removed the 
content. We put the website back up. There was no problem with 
that. The entire thing lasted about an hour. But, I want to 
tell you, the amount of outrage and backlash that we 
experienced as a result of taking that down was phenomenal. To 
this day, there are full-blown websites devoted to criticizing 
our decision for removing that content.
    I don't know what people would have had us to do. Leave the 
user names and passwords out there, so that everybody can go 
stalk Ms. Nelson, like the gentleman that did that to her when 
she was 13? I don't know, you tell me.
    Many people, I think, would simply rather that the Internet 
be a free exchange of ideas, with no rules and no oversight. 
They have little or no concern for the potential dangers this 
model creates for children.
    Because so much of the burden, therefore, rests on parents, 
we would encourage the Committee to focus on ways to educate 
both children and parents about the dangers of using the 
Internet. Apparently, protecting your MySpace data with a user 
name and password is not good enough anymore.
    I would say most major corporations want to do whatever 
they can to help. The legitimate ones, the ones that Mr. Allen 
is talking about, that his organization works with. But we need 
to have some tools, to be effective, as Mr. Allen mentioned in 
his testimony.
    So, Mr. Inouye, thank you so much for the kind invitation 
to testify. We are grateful that this Committee is once again 
looking at this issue and for your leadership on this, and for 
recognizing that the problem of exploitation of children 
online, generally--and, specifically, child pornography--is a 
growing and unacceptable problem that must end. And we are 
committed to working with law enforcement to see to it that 
that happens.
    Thank you.
    [The prepared statement of Ms. Jones follows:]

Prepared Statement of Christine N. Jones, General Counsel and Corporate 
                  Secretary, The Go Daddy Group, Inc.
Introduction
    Good morning, Mr. Chairman and Members of the Committee. I am 
Christine Jones, General Counsel and Corporate Secretary of The Go 
Daddy Group, Inc.
Background
    The Go Daddy Group, Inc. consists of eight ICANN Accredited domain 
name registrars, including Go Daddy.com. We have over 22 million domain 
names under management, and are the number one domain name registrar in 
the world. GoDadd registers a domain name every 2 seconds or less. Go 
Daddy is also a large hosting provider.
    A domain name registrar serves as the point of entry to the 
Internet. For example, Chairman Inouye, if you wanted to register the 
domain name www.ChairmanInouye.com, you could go to www.GoDaddy.com to 
register that domain name. A domain name registrar is different from a 
traditional Internet Service Provider (ISP), such as AOL, MSN, or 
EarthLink. The ISP provides access to the Internet whereas the 
registrar provides the registration service for .com names and the 
like. In short, in exchange for a fee, the ISP provides the means by 
which an Internet user connects to the Internet via a dial-up 
connection, cable modem, DSL, or other connection method. A registrar, 
on the other hand, enables Internet users to establish a web presence 
by registering a unique name such as www.ChairmanInouye.com.
    Once www.ChairmanInouye.com is registered, you would need to build 
a website and find a place to store, or ``host,'' that website. Again, 
you could go to www.GoDaddy.com for storage, or hosting, services. A 
hosting provider differs from a traditional ISP in that the hosting 
provider supplies space on a computer that is accessible from the 
Internet rather than access to that computer which is provided by the 
ISP.
How Go Daddy Deals With Online Child Predators
    The Go Daddy Group devotes considerable time and resources to 
working with law enforcement to preserve the integrity and safety of 
the Internet by quickly closing down websites and domain names engaged 
in illegal activities. We work with law enforcement agencies at all 
levels and routinely assist in a wide variety of criminal and civil 
investigations. We are also quick to respond to public complaints of 
spam, phishing, pharming, and online fraud and work closely with anti-
fraud and security groups such as the Anti-Phishing Working Group, 
Digital Phish Net, the National Center for Missing and Exploited 
Children, and CyberTipLine. Go Daddy has made it a high priority to use 
its position as a registrar to make the Internet a better and safer 
place. It is also a priority for me personally.
    My staff routinely investigates and suspends sites involving child 
pornography and exploitation of children in many forms and degrees of 
severity. These include, but are not limited to, the following: 1) 
sites depicting children of both genders engaged in sexual acts with 
adults or other children; 2) sites depicting children nude or exposing 
inappropriate areas of their bodies; 3) sites advertising, advocating, 
or promoting sexual relations with minors; and, 4) sites with false or 
altered images depicting children in various sexual situations. Our 
investigations have also uncovered sites containing photographs, 
videos, and text descriptions; children depicted in a sexually 
solicitous manner; sites that claim only to be ``nudist'' sites, but 
include pictures of naked children; and, even cartoon images depicting 
sex acts with infants and small children. We take each instance 
seriously and devote high priority attention to ensuring such websites 
are removed from our network, as described in more detail below.
The Domain Name Registration Process
    The domain name registration system is entirely automated. There is 
no human intervention into the process. Because many words have 
multiple meanings and combinations of words can be used for both 
legitimate and illegitimate purposes, no domain names are automatically 
prohibited from registration. As mentioned above, Go Daddy registers a 
domain name once every 2 seconds or less. This makes it virtually 
impossible for a human being to verify the legitimate use of every 
domain name registration, particularly on an ongoing basis. To 
compensate for this, we have developed a notification system for 
reporting instances of all types of network abuse, including child 
pornography (hereinafter, ``CP''), to our Network Abuse Department.
The Notification Process
    With over 22 million domain names under management, most of our 
data come from third party complaints or notices. The Go Daddy Network 
Abuse Department can receive information that a CP site may be residing 
on our network in several ways: 1) direct complaint from a third party 
via email; 2) direct complaint via telephone; 3) tip from Go Daddy 
employees who have either become aware of, or suspect the existence of, 
CP on a customer site; and, 4) notifications from CyberTipLine and 
other ``watchdog'' groups.
The Investigation Process
    Once Go Daddy is made aware that a potential CP site is registered 
through Go Daddy, we immediately investigate to determine whether there 
is CP content, and if so, whether that customer has other domain names 
resolving to the site with the CP content, and whether there are other 
hosting sites in the customer's account which contain CP content.
    In many cases, Internet users can only access CP content by 
supplying a paid-for membership user name a password. While we cannot 
investigate content that requires payment to access, we do investigate 
all web pages found to be freely accessible to Internet uses without a 
user name and password for any site that we suspect may be involved in 
CP. If the site is hosted by Go Daddy, we may also access content 
directly in the customer's hosting account to ensure we eliminate all 
CP content. Often, the operators of websites of a pornographic nature 
are guarded about images on publicly accessible landing pages and store 
the most offensive content in directories that site visitors can only 
reach with payment.
    After we determine that there is content meeting the criteria for 
classification as CP, we archive a screenshot (in the case of a 
registered domain) and all or partial content (in the case of a hosted 
site) sufficient to demonstrate evidence of CP for future use in law 
enforcement investigations.
The Reporting Process
    Once Go Daddy's investigation is complete, we report the offending 
domain names, websites, and registrant information to law enforcement. 
We give law enforcement a short time period to request that we leave a 
website in tact to assist in their investigations. This allows 
authorities to expeditiously gather screenshots, downloads, WHOIS data, 
and other information necessary for further investigation. We also 
report the offending domain names, websites, and registrant information 
to the National Center for Missing and Exploited Children (NCMEC) via 
their online submission and complaint area, CyberTipLine.
The Suspension Process
    After the offending domain names, websites, and registrant 
information have been investigated and reported, we permanently suspend 
our services. It is important to note that domain names are not 
suspended prior to the investigation and reporting processes, 
especially where domain names are not associated with an active 
website. It is very difficult for us to suspend a domain name before it 
is associated with an active website because many words have multiple 
uses. And, if there is no CP content associated with a particular 
domain name, there is no reason to suspend the domain name itself 
because there is nothing unlawful about a domain name, in and of 
itself.
How Go Daddy Deals With Private Domain Name Registrations
    Go Daddy offers privacy services for domain name registrations. A 
private domain name registration is recorded through a proxy 
registrant. This enables a domain name registrant to avoid publication 
of their personal information in the public WHOIS data base. We find 
that most of the users of the private registration service are 
legitimate users; bad actors typically do not want to pay extra to hide 
their WHOIS data when they are probably going to provide false WHOIS 
data, anyway. Most CP sites do not have privacy protection on them. 
More often, the registrant simply provides false, but valid looking, 
WHOIS data, upon registration.
    The registration process for a domain name is exactly the same 
regardless of whether the customer chooses to enable privacy. While we 
do not have different rules for registering a domain name with privacy, 
we do use our Universal Terms of Service broadly to cancel privacy when 
the Go Daddy Abuse Department determines it is being used for ANY 
improper purpose. Go Daddy also gives law enforcement the proxy 
registrant information on private domain name registrations when they 
are investigating a domain name with privacy. In the case of a CP site, 
this information is voluntarily provided to law enforcement during the 
notification process described above.
Child Pornography Statistics
    Go Daddy investigates thousands of domain names and websites each 
year for CP. The number of unique customers investigated in the past 
twelve months was approximately 1,500. (This number does not include 
the child modeling sites discussed below which are growing in numbers 
daily.) The number of domain names investigated each year is much 
higher than the number of unique customers investigated. One unique 
customer may have many domain names in one account. Once we find out 
about potential CP in a customer's account, we look to determine what 
other products they may have associated with CP. Many times, one 
customer will have literally hundreds of domain names on account. In 
those cases, we suspend ALL the domain names with CP, not just the one 
upon which we received a complaint or notification.
    Importantly, these numbers are skewed slightly lower because many 
times when Go Daddy is the registrar, but not the hosting provider, the 
website content has already been removed by the hosting provider by the 
time we conduct our investigation. This is a result of third party 
complaints being sent to both the domain name registrar and the hosting 
provider at the same time. This is a sign that many hosting providers 
take complaints of CP as seriously as we do and we are, of course, 
grateful when we find that they are fully cooperating with us to rid 
the Internet of CP content.
    Approximately 70 percent of the sites we suspend are registered, 
but not hosted, with Go Daddy. This means that in about 70 percent of 
the investigations we conduct, we find that the website content itself 
is stored by another hosting provider and Go Daddy provides the domain 
name registration service only. Approximately 80 percent of the CP 
websites we investigated in the past year were registered to an 
individual or company in Eastern Europe. The most common areas were 
Russia, Ukraine, and Romania. Importantly, the majority of CP sites we 
investigated in the past twelve months were registered fraudulently. 
This makes identifying the exact nation of origin difficult, and brings 
into question the reliability of numbers we collect.
How Go Daddy Deals With Child Modeling Websites
    Much like CP websites, we routinely investigate and suspend sites 
involving child modeling. These include, but are not limited to, the 
following: 1) images of underage children posing in a manner intended 
to be explicitly sexy. (e.g., emphasizing genital areas or posing in 
situations easily identified with sex); 2) images of underage children 
in adult lingerie; and, 3) images of children in states of partial 
nudity or very little clothing not associated with normally acceptable 
situations. Images of a child in a bikini swimming at a pool would not 
be considered. Images of the same child in a thong bikini laying on a 
bed and spreading her legs would be.
    As these sites typically do not rise to the level of technical CP, 
we classify these sites as ``morally objectionable,'' a term taken from 
our Universal Terms of Service. We tend to be more aggressive than most 
registrars on child modeling sites. We typically remove them, even if 
we can't find CP, because our experience has been that the operators of 
child modeling sites tend to be associated, even if attenuated, with CP 
in some way. We also remove the non-traditional forms of CP like nudist 
sites and cartoon CP.
The Domain Name Registration Process
    While there is no prohibition against registering a child modeling 
domain name (because there is nothing illegal about the domain name 
itself), we do treat child modeling websites in a manner similar to CP 
sites. We have seen child modeling sites with more and more frequency 
over the past year. Almost every time we find a child modeling site, we 
learn that the customer has multiple domain names specializing in child 
modeling. We also find that a customer who runs child modeling sites 
typically also has CP on its site somewhere, or that the child modeling 
sites lead, even if circuitously, to CP on another site the customer 
controls somewhere. Based on our investigations, we have found that the 
vast majority of these sites are of little girls.
The Notification Process
    All child modeling website investigations originally come in as 
notification of alleged CP (as described above) by third parties or 
employees. When we are notified of a child modeling site, it is 
transitioned to a child modeling investigation as soon as it is 
discovered to be a child modeling site not containing explicit 
pornography.
The Investigation and Reporting Process
    We follow nearly the same procedure for child modeling sites as 
described for CP investigations. Because the child modeling sites fall 
squarely under the charge of the NCMEC, as they are clearly exploiting 
children, these sites are also reported to the NCMEC.
    The following example demonstrates the importance of all ISPs, 
registrars, and hosting providers taking child modeling sites 
seriously. One child modeling investigation we conducted recently 
uncovered a registrant engaged in CP. We discovered this particular 
customer had over 200 domain names attached to active child modeling 
websites. After following our standard investigation procedures, Go 
Daddy submitted their information to authorities. Two weeks later, this 
customer was arrested and indicted on multiple counts of CP. This is 
just one of many examples of a direct link between information we have 
provided and arrests for CP.
Child Modeling Statistics
    We investigate thousands of domain names and websites each year for 
child modeling. The number of unique customers investigated in the past 
year was approximately 780. As with CP, the number of domain names 
investigated each year is much higher than the number of unique 
customers investigated. This is because one unique customer may have 
many domain names in one account. Many times, one customer will have 
literally hundreds of domain names in its account. In those cases, we 
suspend ALL the child modeling domain names, not just the ones upon 
which we received a complaint or notification.
    Approximately 60 percent of the sites we suspend are registered, 
but not hosted, with Go Daddy. This means that in about 60 percent of 
the investigations we conduct, we find that the website content is 
stored by another hosting provider and Go Daddy provides the domain 
name registration only. This statistic might tend to suggest that child 
modeling operators are more comfortable using the services of a 
mainstream hosting provider than those who engage in pure CP, although 
we have no independently verifiable data to support that suggestion. 
Approximately 60 percent of child modeling websites we investigated in 
the past year were registered to an individual or company overseas, 
typically in European countries. Unlike with full blown CP, 
approximately 40 percent of child modeling sites we investigated and 
suspended in the past twelve months were registered to an individual or 
business in the United States.
Conclusion
    Thank you, Chairman Inouye, for the kind invitation to testify 
today regarding protecting children on the Internet. We are grateful 
for this Committee's attention to this important issue and for 
recognizing that the problem of online exploitation of children 
generally, and child pornography specifically, is a growing and 
unacceptable menace that must end. Go Daddy is committed to taking 
whatever steps are necessary and feasible to assist in ending this 
practice, and we would challenge our counterparts on the Internet to 
make the same commitment.

    The Chairman. Thank you very much, Ms. Jones.
    Senator Stevens?
    Senator Stevens. Thank you very much. I would not be able 
to come back after the vote, so I do thank you, appreciate the 
opportunity.
    I'm interested, Ms. Jones, in the question of whether or 
not the community out there dealing with the Internet in 
general has any idea of what type of an education program would 
work.
    Ms. Jones. There are many conversations that happen around 
this issue. And, as Mr. Allen said, there's not one single 
silver bullet, there's not one single simple solution. But, if 
you teach a teenager not to post pictures and not to put their 
address and phone number, not to put their hometown on the 
Internet, those kind of simple solutions--I mean, basic, 
fundamental stuff--that would go a long way toward helping kids 
escape some of the predators that are out to get them.
    I think Ms. Nelson made the point, people on the Internet 
go after the weakest link. They want the kid that's easy to 
get. So, if each child knows, ``Hey, you know what, if you're 
going to be on the Internet, don't put your stuff out there,'' 
that would go a long way to solving the problems that we're 
talking about right now.
    Senator Stevens. Is there any way that you think that the 
system could be modified so that parents would have greater 
control over children?
    Ms. Jones. Well, there are some proposals around that 
issue, for example, the dot-US [.us] country code top-level 
domain, which is central to the United States. They have an 
area called dot-kids-dot-US [.kids.us], which is supposed to be 
used specifically for children on the Internet. That type of 
thing would work for smaller kids. Teenagers, they're not going 
to buy it, right? Because they want to go out, and they want to 
explore, and they want to do their own thing. But, if you had 
some areas that were defined so that parents could know and 
monitor and get feedback and reports on every single spot that 
their kid went to, every single chat conversation they had, 
every website they viewed, I think the parent would kind of get 
the idea, if they know their kid was talking to some kind of 
strange-sounding person in another State. That is pretty simple 
to implement. Getting the word out and helping people to 
understand that that's available, that's the educational 
process that we're talking about.
    Senator Stevens. Is there agreement on the panel that the 
real problem is in the sub-teens, rather than in the teen 
level? Teens have access to a lot more computers in school and 
in clubs and everything else. I think the sub-teen level ought 
to be the main target of any legislation. And is there 
agreement on that?
    Dr. Finkelhor. I guess I would say no. I think that, while 
it's important to educate the preteens about the dangers that 
they can encounter online, I don't think that they are quite 
yet ready to understand some of the kind of risky activities 
that will really get them into a lot of trouble. I think this 
has to go along with some of the information that we give them 
when they start to be interested in romance and taking risks, 
so that there's a different kind of educational package that we 
need to target at those teens, and particularly at these teens 
who are inclined to take risks and who may be having serious 
problems in their----
    Senator Stevens. I was talking more about parental control. 
It seems to me we could put some parental controls on home 
computers, but I don't think we can go out to the stores and 
other places where teenagers can access the Internet somewhere. 
The sub-teens really don't have that opportunity.
    Anyone else comment on that?
    Ms. Nelson, what do you think?
    Ms. Nelson. I feel, as Dr. Finkelhor said, I think that we 
can educate our teens on ways to stay away from predators, but 
I feel that education of safe Internet usage should start a 
lower level. Kids as young as 5 and 6 are using the Internet. 
If they knew simple habits, like, ``Don't talk to strangers,'' 
just like you don't on the street, ``Don't share your personal 
information, involving adults if you feel uncomfortable,'' if 
they know those habits at a younger age, they will learn to be 
more responsible Internet users as they grow with age.
    Mr. Allen. Senator Stevens, let me add, I think there's no 
question that educational emphasis has to be put on the sub-
teen group. Teens are tough. And what we've tried to do, what 
many of the groups that are doing such great work in this area 
have done is try to look for that way to really communicate 
with teens on their level, that they understand. The second 
part of the message is to parents, ``Your parenting obligation 
isn't over just because your kid's 13 years of age. They're not 
virtual adults, they are still kids.'' I think we have to 
continue to pound home the message on parents that, ``You need 
to be involved in your kids' lives, you need to talk to them 
and communicate with them, and make sure you understand the 
kinds of challenges they're facing.''
    So, I think the answer, unfortunately, has to be 
multifaceted, comprehensive, and target both age groups, and 
keep parents in the mix.
    Mr. Neugent. If I may add to that, in education what we've 
found is that many of the teachers that are working with 
children don't have all of the skills that are necessary to 
help protect them, and that's why we're developing the Internet 
curriculum, so that they can take a look at that. And we do 
find it pervasive, all the way from kindergarten through high 
school. There are unique issues with every age group, and the 
guidelines and the things that we're working on are to try to 
make it so that all of those areas have some influence over 
that. The role of leaders, the role of administrators in 
school, the role of the people that influence children's lives, 
is critically important as they start to work with it.
    One of the things we're trying to do, for example, is to 
educate parents so that they understand how to check a log and 
see where children have been, just as many of the panelists 
have said, sometimes a simple thing like that, parents just 
don't know how to do that, and can't track where their children 
have been.
    Senator Stevens. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    We know, on the basis of Mr. Nugent's testimony today, what 
they're doing in Virginia with regard to education. And I'd 
like to ask the rest of the panel, what do you think are the 
kind of programs that will work the best in order to educate 
children as part of the overall curriculum?
    Ms. Nelson. As I said earlier in my testimony, they have 
the opportunity to be a part of computer classes, as young as 
the middle-age schooling. Taking time during those computer 
classes to implement Internet safety education is one of the 
ways that I feel that it would be most effective, because they 
would be made to learn about the issues of the Internet. Kids 
aren't always going to want to hear these stories, they're not 
like Ms. Jones said, they want the Internet to be a free place 
where they can express themselves. But if they're made to learn 
about it, if they're made to be safer Internet users, they will 
learn these rules a lot easier.
    Dr. Finkelhor. I'd just like to make another pitch for what 
I see as crucial here: research on this issue. I'm not sure 
that we know what the best prevention message is. I'd like to 
highlight some missteps that were made many years ago with the 
drug-use problem. We ran in, in response to the sense that kids 
were taking drugs, and tried to scare them off. And it turned 
out not to have been very effective. And it took us a decade or 
more before we understood that we had to go in and teach kids 
specific drug-resistance techniques, and help them by role-
playing these skills.
    Senator Nelson. Well, do you think that----
    Dr. Finkelhor. And we need to go through that same 
process----
    Senator Nelson. Do you think Virginia----
    Dr. Finkelhor.--to try to do it earlier.
    Senator Nelson.--is on the right track?
    Dr. Finkelhor. Do I think what?
    Senator Nelson. Virginia is on the right track?
    Dr. Finkelhor. I'm not familiar, entirely, with what 
they're doing, but my sense is that a lot of the messages that 
we've got are based on hunches about what would work, but we 
really haven't roadtested them yet to see if they actually get 
kids to be safer online.
    Senator Nelson. Mr. Allen, you mentioned a number of 
additional tools that you'd like to see Congress give to law 
enforcement. Of those proposals, which are the one or two that 
you think are the most important?
    Mr. Allen. Well, the two that I think are the most 
important, Senator Nelson, is--one, I think the Congress needs 
to fix the 1998 law that mandates Internet service providers to 
report child pornography on their system. The good news is, the 
major players are doing it willingly and aggressively. I think 
that's a problem that is fixable by statute and needs to be 
fixed.
    The second thing is, I think there is a huge challenge for 
law enforcement in terms of the connectivity information. I 
know that's a complex issue, with--certainly with the ISP 
community. I'm convinced there is a reasonable resolution that 
does not go after content, but just requires preservation of 
those connectivity logs.
    And third--and I know this is the Commerce Committee and 
not the Appropriations Committee, but I think law enforcement 
needs help. Somebody said earlier, the sheer scale of this 
problem far exceeds anything that we anticipated, and Federal 
law enforcement, the FBI's Innocent Images National Initiative, 
ICE, and the agencies that are attacking this problem, need 
resources. State and local law enforcement needs resources.
    Senator Nelson. Mr. Chairman, I just want to agree with 
your comments about the young lady providing testimony. And I 
want to say that, Ms. Nelson, you're in a unique position 
because of what you have been given, the title, in order to 
have a great deal of influence on a lot of people. And the fact 
that you have chosen this as your subject area, I think, should 
indicate the highest of compliments from us, who are concerned 
about this.
    Thank you.
    Ms. Nelson. Thank you very much, Senator.
    The Chairman. Thank you very much.
    Senator Rockefeller?
    Senator Rockefeller. Thank you, Mr. Chairman.
    I'm a little bit mystified by the whole concept of 
educating parents and educating children, as opposed to 
stopping the activity, in the first place, through law.
    There was a instance recently here where the movie industry 
spent $250 million--not of their own money, I might add--of 
trying to convince Americans that they were doing the best that 
they could on indecency, and how to use the V-chip, and all 
those kinds of things. And it was a predictable failure. It was 
a predictable failure.
    I agree with, I think, with what you said, Ms. Nelson, that 
if people--if children--young people feel they're being talked 
down to, or they're being ``educated'' to achieve a higher 
moral standard in, sort of, a special circumstance, they're 
less likely to listen. I think parents are more likely to 
listen, but parents, on the other hand, are less likely to 
understand what the problem is, except as their generation is 
younger and they're more familiar with it.
    I mean, for example, 85 percent of parents, which is 
certainly the overwhelming majority, claim to have implemented 
rules in their homes about Internet sites their children can 
visit. Implemented rules. That's definitive. And, additionally, 
a majority of parents, 53 percent, claim to have filtering 
software to limit access to certain Internet content. Again, 
that would seem to be a case-closed type of activity. But then, 
at the same time, 70 to 90 percent of children claim to have 
viewed pornography online, much of it graphically very 
hardcore. So, on the one hand, we educate, or we give people 
either--in the case of television, V-chips or Internet--other 
types of ways of blocking. And, on the other hand, it doesn't 
seem to work. So, I think this is the conundrum. There's no 
single bullet.
    I think what appeals to me the most is what you suggested, 
and that is making it part of the curriculum. I don't know, 
what do you have, a 45-50-minute Internet class, and little 
kids start, you know, at 4 or 5 years old, or 3 or 4 years old, 
and they start, and then they get better at it. But they always 
have that available to them. And I think it ought to be--just 
as we don't teach physical fitness anymore, maybe we could 
substitute mental stability for physical fitness, and at least 
not have people fall into those types of situations.
    I think children respond to what they learn in the 
classroom, because it's sort of like math and science. I mean, 
it's likely to be right. What you're told is likely to be 
right, or at least it's a point of view which is given to you 
by a figure that you respect who's not threatening to you--that 
is your teacher--as opposed to your parent, who can be put into 
that position.
    So, on the other hand, I have no idea that that will work 
either. I have no idea that that will work either. And I just 
wonder, several of you made your remarks, and you said we've 
got to do more of this and more of this and more of this, and 
nobody really got, again, back to the people who are actually 
doing it. It was a question of how to stop something from 
appearing on the Internet, stopping opportunities for children 
to be able to do things they shouldn't, but not foreclosing--
you were different, Ms. Jones, when you talked about getting 
rid of some of these sites, and then all of the backlash, which 
I find absolutely fascinating, which I think underlines the 
problem of the voracious hunger for this kind of stuff, which 
ought to be extremely scary to all of us.
    But, to me, if you don't want to have bad language on 
family programming, which is now described as 7:00 to 10:00, 
and children's hours are 7:00 to 10:00, and which we all know 
is ridiculous. I mean, children start their homework at 10:00. 
And so, they get to see all the bad stuff, even while we're 
preaching the 7:00-to-10:00 concept. So, isn't it--actually 
making it a part of the curriculum--I don't know what you do 
about parents, because I think parents are a very mixed group. 
Some want to, but don't know how to. In the case of the 
Internet, obviously, if you come from a rural State, West 
Virginia, like I do, there are a lot of parents who don't know 
how to use the Internet, so they wouldn't have the first idea 
of how to tell their children about what to do, or there is no 
Internet connection at home. In the classroom, yes; at home, 
no. I think a lot of parents are also afraid to appear to be 
moralistic in such direct, ``You can do this, you can do that, 
I'm going to block this, I'm going to block that, this is why 
I'm going do it.'' And so, that's a hard thing for--it's a hard 
intervention for a parent. It's a necessary intervention for a 
parent, but, on a human basis, it's a difficult one for them to 
make.
    So, my feeling, still, is that you put this into the 
education, you make it part of the training, and you don't make 
it just for 1 year, you make it all throughout, so that whether 
you're dealing with 5-year-olds or 15-year-olds, they're all 
children, and they're all subject to different people's, you 
know, malevolent interests. And then, second, finding ways to 
close legal loopholes, to raise fines, or simply to make 
something illegal, to make something criminal. I mean, if 
there's anything that's criminal, it's the attacking of a young 
child, even the attracting of a young child. It's a criminal 
activity, as far as I'm concerned. Now, I'm not a lawyer, it 
may be treated as such, but I don't think so. So that I think 
sometimes we're too delicate in the way we try to approach 
things. Education is a very long-term process. There are a lot 
of people that don't know a whole lot about Shakespeare, and 
we've been teaching Shakespeare for two or three hundred years.
    So, I'd just like to have you react to my point; that is, 
number one, you make it a part of the curriculum, so that the 
children themselves ingest in an atmosphere which they can 
trust and feel comfortable with, surrounded by their peers, 
therefore no bullying, as to how they can get into trouble; and 
then, after class, they discuss how some of them did get into 
trouble. And so, it sort of feeds upon itself, on the one hand; 
and, on the other hand, action which strikes down the 
profitability factor, not just closing in on the records, but 
figure out ways to make it impossible for people to do it.
    Mr. Neugent. Mr. Rockefeller, before others respond, if I 
could just say that, in your packet is Virginia's Internet 
Safety Guidelines Curriculum. We certainly concur with what 
you're saying, Internet safety instruction needs to be in the 
schools, it needs to be in all of the curricula areas. And 
you'll see examples in all of the major areas in Virginia.
    Senator Rockefeller. Is it done every time an Internet 
class is taught, is it done? Is it done three times a week? Is 
it done once a week? Is it a regular part? Does it go on for 10 
or 12 years? That's what I'm interested in.
    Mr. Neugent. Yes, in all of the curricular areas.
    Senator Rockefeller. It just never gets--you never can get 
away from it in school.
    Mr. Neugent. This is a shared responsibility of all 
teachers. That's the way we work with Internet safety in 
Virginia, so that a teacher in kindergarten, first grade, a 
history teacher in ninth grade, all have a shared 
responsibility. And what we've tried to do is to show them, 
against our standards, those things that they should do in each 
of the curricula areas.
    Senator Rockefeller. And then they have to do it.
    Mr. Neugent. They have to do it.
    Senator Rockefeller. And then, are they monitored by the--
--
    Mr. Neugent. Also in your packet is a monitoring document 
to check and see that it is being done.
    Senator Rockefeller. Any other----
    Mr. Neugent. I don't think it's something we will have an 
answer to immediately, but certainly the monitoring document 
will give answers over time----
    Senator Rockefeller.--comments?
    Mr. Neugent. I don't think it's enough, it's just a start, 
but I know we will do more in the future.
    Senator Rockefeller. No, no, it's----
    Dr. Finkelhor. I agree with what you're saying, and I think 
that broadening the approach across the curriculum is very 
important. There's an additional broadening dimension, in 
addition to talking about Internet safety: we need to be 
talking about Internet citizenship. We can take a lesson from 
the community policing and crime control experience. When 
communities were able to mobilize neighborhoods into 
Neighborhood Watches, where everybody felt a kind of 
responsibility for what was going on, reporting things that 
they saw that were disturbances, behaving well themselves when 
they were in public spaces, we cleaned up a lot of 
neighborhoods. And I think the Internet is a kind of 
neighborhood too, which needs this kind of Neighborhood Watch 
kind of orientation. And that's something we can be also 
addressing in this curriculum that you're talking about.
    Senator Rockefeller. Mr. Chairman, will you yield me an 
additional 30 seconds?
    The Chairman. Proceed.
    Senator Rockefeller. I want to disagree with that. I don't 
want to say it's a bad idea, but, to me, there is such an 
enormous difference between the Neighborhood Action Committee, 
between breaking and entering and permanently either scarring a 
child's mind or damaging a child, which is a criminal activity 
of an entirely different dimension. I meet regularly, when I go 
back to West Virginia, with students and parents and 
psychologists and others, and school officials, and we talk 
about that. Their view is so one-sidedly in favor of cracking 
down, it's not even funny. And I don't pick them out to reflect 
the way I think about it, they just show up. I mean, they're 
angry about this, and they feel helpless about this. And if the 
parents have tremendous Internet capacity, that's terrific, but 
most of them don't feel confident, or they don't feel confident 
how to approach their children on this thing. And I think it 
has to be a really targeted one-on-one type of thing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman.
    Thank you, all of you, for coming.
    And I know Mr. Allen well, from the work he's done, as a 
former prosecutor. We've worked together.
    And I will say that I look at this just from, first, as a 
parent, the challenges I've had. I remember the last 2 years, 
the only campaign question that stumped me was at a teen 
program. They asked me if I knew what ``LOL'' meant. Do you 
know what that means----
    Ms. Nelson. Laugh----
    Senator Klobuchar.--Ms. Nelson?
    Ms. Nelson.--out loud.
    Senator Klobuchar. Exactly, laugh out loud. Well, I didn't 
know that, and my daughter, who's 12, reminds me of that every 
day.
    And one of the things I think we see is that these kids are 
ahead of us on the Internet, and it means that we have to learn 
what we're doing and make sure those standards are in place. 
And I've been impressed by some of the work you've done, Mr. 
Allen, on that, as well as the rest of the panelists.
    The second way I look at this is as a former prosecutor. 
And I saw these horrific cases that we had, where we would 
trace them back--rapes or other cases--to where young people 
had met people over the Internet. And we had a number of child 
porn cases, as well. And one of the things I always reminded 
our people was that these child porn cases, while it's a crime 
itself, there's something sort of distant about it, where it 
doesn't seem real, but it became very real to us when we had a 
case where it was just a child porn case, actually, against a 
professor. I remember, his name was Professor Pervo----
    [Laughter.]
    Senator Klobuchar.--and he had been looking at hundreds of 
images of porn. He was prosecuted. There were some pictures, so 
we were trying to figure out, Are these real kids? Do they live 
in Minnesota? Can we help them at all? And we saw--one of the 
pictures had a high school--some kind of emblem in the back, 
and the police traced it, and they found a kid in a small town 
in rural Minnesota who had basically, been molested, and he 
somehow had ended up in this grouping of pictures that this 
professor had as a series of pictures of child porn. And it 
reminded me again that these are real children who are real 
victims of crimes, and not just images on the Internet.
    So, I look at this in terms of law enforcement. My 
questions are more along that vein. First of all, I know that 
we've had some concern in investigating these cases, about the 
data retention policies of some of the Internet service 
providers, that they're inadequate, and sometimes we're unable 
to get the information we need. And I guess I'd ask you, Mr. 
Allen, or anyone else that could shed some light on this, What 
is the average time that ISPs retain this information? And what 
do you think would be an appropriate amount of time?
    Mr. Allen. It varies widely, and that really is the 
problem. There are a number of companies that have been 
extending that retention period 30 days, 60 days, 6 months. 
From the law enforcement folks that we talk to, in our view it 
needs to be at least a year, preferably longer. And, again, our 
accommodation, recognizing that this has real impact on these 
companies if they're required to maintain massive amounts of 
data, our view is that what they should be required to retain 
are the connectivity logs. The key issue for law enforcement 
is, you have to establish that this person went online at this 
time from this particular site. I think there is a way to 
resolve this conflict without devastating the industry. But we 
hear it from our law enforcement partners across the country 
every day, you can't make the cases without that basic 
information. We really have to resolve the whole data retention 
issue.
    Senator Klobuchar. And the other piece of this, which you 
touched on is the training of police officers. I just remember 
some cases we had early on with small police departments, where 
they'd come upon a scene and were investigating a child porn 
case. And sometimes there aren't big rings, it's just one 
person or they're trying to figure it out, and they get to the 
computer, and they start turning it on, themselves, and turning 
it off, and basically there were triggers in there that would 
ruin all the evidence that we had. And we did some training 
videos on this that were really basic. But I remember, at some 
point, the Federal Government was offering to do these regional 
investigations to help local law enforcement with forensics and 
other things. And I just wondered what the status is of that. 
It's clearly a problem for local police departments.
    Mr. Allen. It's a huge problem. We, at the National Center, 
are bringing law enforcement in, as well as going out to do 
these kinds of training programs. A real step forward in all 
this has been the creation of the Internet Crimes Against 
Children Task Force Program. Your ICAC in Minnesota has been 
terrific, and has made lots of cases.
    Another major challenge in this area is the whole issue of 
forensics, because computer forensics are very demanding, are 
time consuming. If you seize a computer that has 60,000 images 
on it, it's going to take time to get that. I've talked to FBI 
leadership about it. One of the big challenges now is, it's 
just taking too long to build these cases. I know there's a 
dollar sign attached to that, too, but we've really got to pay 
more attention to building forensic capability targeted to this 
kind of issue.
    Senator Klobuchar. And my last question is, Is there 
technology currently on the market or in development that can 
catch perpetrators who rely on this peer-to-peer file-sharing 
networks to traffic in child pornography?
    Mr. Allen. The answer is yes, but this is an evolving 
proposition. One of the real challenges here, as you know from 
your time as a prosecutor, is, like every other aspect of human 
life, the bad guys tend to get the new technology before law 
enforcement. So, we've spent 10 years trying to help law 
enforcement catch up. And what we're seeing now is that, when 
you make headway in one area, the technology evolves. So, it is 
a continuing process.
    I think the most encouraging thing is that these technology 
companies want to help. For example, we are now working with 
AOL, Microsoft, Yahoo!, Google, EarthLink, and United Online in 
an effort to develop a database of hash values. Basically, each 
one of these images has a fingerprint; and a lot of the images 
on the Internet are not new images, they circulate forever. So, 
one of the things we're trying to do is work with technology 
companies to try to develop new technologies to identify and 
interdict those identified illegal images and keep them from 
reaching the computers of America's consumers.
    Senator Klobuchar. Thank you.
    And I also wanted to thank you, Ms. Nelson, for being here. 
I must tell you that we had a case once when I was a 
prosecutor, a white-collar case, and one of your predecessors 
testified in favor of the defendant, because she was his 
friend, that he should get a lighter sentence. And I was always 
telling the story, for years, that we took him on, even though 
the former Miss America testified on his side, and that it 
didn't bother me, because I was a former Miss Skyway News of 
March 1988.
    [Laughter.]
    Senator Klobuchar. So, I'm just so pleased that you are on 
our side, testifying on this issue, so that you've righted the 
name, in my mind.
    Ms. Nelson. Well, thank you.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you.
    Senator Pryor?

               STATEMENT OF HON. MARK L. PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Let me start, if I may, with Dr. Finkelhor. In your 
testimony, and in your written testimony, you say that--I guess 
you come to the conclusion that giving out personal information 
or participating in social networking sites is not the most 
crucial factor that places children at risk. Is that fair?
    Dr. Finkelhor. That's right.
    Senator Pryor. All right. I'd like to ask Mr. Allen if you 
agree with that statement.
    Mr. Allen. We think that putting personal information out 
there puts kids at risk. I think what Dr. Finkelhor is saying 
is that--I won't speak for Dr. Finkelhor--but that there are 
other factors that appear greater.
    We think there is abundant evidence, including Dr. 
Finkelhor's research, that indicates more kids are posting 
personal information, more kids are posting photographs today 
than ever before. His research indicated that kids are being 
more cautious. Fewer kids are interacting with people that they 
don't know. But, in our judgment, it puts kids at risk, and 
that we should continue to work to stop kids from doing it.
    Senator Pryor. Dr. Finkelhor, do you agree with what he 
just said?
    Dr. Finkelhor. Well, I think it's a generally good idea to 
tell kids, ``Be judicious about what you do with personal 
information, because you don't know where it's going to end up 
or who's going to use it.'' But our research does suggest that 
it's the exchange of personal information, the posting of 
certain elements of personal information, like your Web 
address, and things like that, are so widespread. And our 
research suggests that that's not an indication of the kids who 
are actually getting solicitations and getting into trouble.
    The parallel, I think, to make is with kids being out on 
the street say, walking to school. It's probably the case that 
if you never walk to school, your chances of getting abducted 
are reduced somewhat, because some kids are going to get pulled 
off the street. But there are other reasons to be on the 
street. And it's not a big factor. What's most important is to 
talk to kids about what to do when they get approached, how to 
not play into the hands of the solicitors and the predators 
there. If we think that we're making kids safe by just telling 
them, ``Don't post information, don't talk to anybody you don't 
know,'' that that's not going to really take them very far on 
this road to protecting them.
    Senator Pryor. All right. Well, just to be clear for the 
Committee, in your opinion is the Internet fostering an 
increase in inappropriate contact between adults and minors? Is 
the Internet adding to the problem, or is it a net neutral?
    Dr. Finkelhor. Well, that's a really good question, because 
it would seem as though adults have greater access to kids on 
the Internet, and the Internet has provided a kind of community 
forum for people who have these deviant sexual interests, to 
kind of communicate with one another, maybe even learn from one 
another. But an interesting fact is that, during the same 
period when the Internet was penetrating into so many 
households over the last 10-12 years, sex crimes against 
children have actually been declining in this country.
    Senator Pryor. So, is----
    Dr. Finkelhor. And I'm not sure that it's the Internet that 
has caused that decline. In fact, I don't think it's really 
been a part of it. But it seems to me a mistake to jump to the 
conclusion that the Internet has made kids much more vulnerable 
to sex crimes than ever before, when you see this decline in 
overall sex crimes.
    Senator Pryor. All right. In your opinion, then, is it fair 
to say that child predators have, kind of, moved from the 
shopping malls and the playgrounds and et cetera, et cetera, 
ball fields, et cetera, to the Internet?
    Dr. Finkelhor. No, actually--for the people we consider 
pedophiles, that is, people who have a primary sexual interest 
in prepubescent kids--they really don't get much access to kids 
online. Those kids, at that early age, are really not 
interested in communicating with people online. These 
pedophiles have to go through the traditional social networks 
to access kids. What it has, perhaps, increased is access to 
teenagers, and particularly those teenagers who are vulnerable 
because they're in turmoil in their lives and in search of 
romance and affection and understanding.
    Senator Pryor. Interesting.
    Mr. Allen, let me ask you--and it's good to see you again, 
by the way--but let me ask you about--you mentioned something--
I believe it was Senator Bill Nelson, here, a few moments ago--
about the statute needs to be updated, needs to be fixed. Could 
you give the Committee some more of your thoughts on that? What 
do we need to do to the statute?
    Mr. Allen. Well, the Congress mandated Internet service 
providers to report, but regulations have never been issued by 
the Justice Department. The law was passed in 1998. And, while 
we have worked with the companies voluntarily--327 companies 
are reporting--the position of the Justice Department has been 
that this was a flawed statute that's essentially a civil 
statute with a criminal penalty; and, therefore, for ``intent'' 
reasons, nobody's ever been sanctioned under the statute. Our 
view has been: If the statute is flawed, we ought to fix it; we 
ought to amend it.
    And so, simplistically, the code section is 13032, and we 
believe it's time--we think this is an important tool. These 
reports have led to hundreds of successful arrests and 
prosecutions. And what we have learned, anecdotally--I mean, 
we've handled 500,000 reports, but, of the cases that we have 
handled from these reports from the ISPs, we are learning that 
these are overwhelmingly not instances in which people are just 
downloading images and looking at the pictures; these are 
people who are downloading images, looking at the pictures, 
fantasizing about it, and then acting physically against real 
kids. So, we think this is, in the scope of things, I'm sure 
it's not as big as some other issues, but we think it's one 
that is yielding real dividends, and our concern is that, if 
there are only 327 ISPs reporting, what we don't want to see is 
smaller ISPs become safe havens for this stuff. So, our 
recommendation is that that statute be amended so that 
regulations can be promulgated, and every electronic service 
provider be mandated to report. And if they don't, they should 
be sanctioned under the statute.
    Senator Pryor. Well, I'd like to work with you on that. If 
you all have some language or some--you know, if we can get 
down and really look at the statute and try to come up with 
some specifics, I'd really like to work with you on that.
    Mr. Allen. That would be great.
    Senator Pryor. So, please be in touch on that.
    And the last thing, Ms. Jones--and I know I'm out of time 
here, but--parental controls. Are parental controls the answer? 
I mean, it seems to me--I have a bill that, you know, really 
tries to do a better job of identifying images, et cetera, 
information out there that we don't want young people to see 
and be exposed to. But how important is the parent in this 
process? And what is some of your practical advice of things we 
can be doing, or should be doing, as a Congress?
    Ms. Jones. There's no simple answer to that question. 
Parental controls are not ``the'' answer. Parental controls are 
``an'' answer. Amending the 1998 statute so that my colleagues 
in the hosting community actually provide data to Mr. Allen's 
organization is ``an'' answer. Getting out and implementing 
something like what Virginia has in schools in schools is 
``an'' answer. But I cannot overemphasize the importance of 
parents being involved in this process, because if your kid is 
sitting in their bedroom looking at the Internet, and you don't 
know what they're looking at, chances are they're looking at 
something bad, just like everything else your kid does in the 
bedroom with the door closed without you knowing about it. Kids 
push boundaries, and so, the parent has to be involved.
    Some parental controls that are available work. Some of the 
filtering works. If the technology coalition that the National 
Center has put together actually gets this database of known 
images, that will be hugely helpful. I can go bump up against 
our database of thousands upon thousands upon thousands of 
computers with millions of hosting accounts, clean the entire 
thing of every image that's in that data base. That's a filter. 
That's helpful. But the parent has to put the filter on the 
computer of the kid that's looking at it in order for what I 
just did to make it effective.
    I think no matter what we do, it's always going to come 
back to the user. And I know Senator Rockefeller was 
uncomfortable with that, because it seems like we're putting 
the burden on kids and parents to do the right thing, and we're 
letting the criminals run free. That's not the case at all. We 
get phone calls every single day from law enforcement all over 
the country who are pursuing the ``bad guys.'' Yesterday, in 
Florida, 22 people were arrested in a case that we helped with 
in a child pornography ring. That stuff is also happening--
that's another sort of parallel line that's going on. But 
you've got to have the parents involved. I cannot overemphasize 
it. And if you're a kid, and your parent doesn't know how to 
use the Internet, teach 'em how to use it.
    Senator Pryor. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And thank all the panelists for being here, and, Mr. 
Chairman, for holding this Committee.
    Could we talk about statistics for a minute? Because I know 
that some were mentioned, but I want to understand--I think, in 
2004, there were reports of 200,000 online child pornography 
cases. Do we know, Mr. Allen or others, if that has increased? 
This was part of the International Center for Missing & 
Exploited Children's data.
    Mr. Allen. Right. We----
    Senator Cantwell. And that was, one in five children ages 
10 through 17 has been solicited online----
    Mr. Allen. That----
    Senator Cantwell.--for unwanted sexual advances. So----
    Mr. Allen. The one-in-five data were from Dr. Finkelhor's 
research, which the University of New Hampshire conducted for 
the National Center in 2000. The good news is, his most recent 
version of that indicated that that number has gotten a little 
better. It's now one in seven.
    In terms of child pornography cases, we don't have the same 
kind of scientific data. What I can report to you is that the 
numbers of child pornography reports received by the National 
Center for Missing & Exploited Children are up dramatically.
    The other thing that we're seeing from those reports is 
that the victims are getting younger. Again, citing Dr. 
Finkelhor's research from a couple of years ago looking at 
offenders, what we've found is that most people don't 
understand what the true composition of this issue is. His 
research found that 39 percent of the offenders who were 
identified had images of children younger than 6 years old; 19 
percent, younger than 3. Many people think this is a problem of 
20-year-olds in pigtails made to look like they're 15. It's 
not. Overwhelmingly, the demand is for prepubescent children, 
and the numbers are getting younger and younger.
    Senator Cantwell. So, if you were going to say the decrease 
of--in fact, if it is a decrease--and, you know, you never know 
what's going on; it may be that people have gotten better at 
hiding the contacts or who knows, maybe software on the other 
side, and encryption technology, who knows what's happening. 
But, let's say, for example--for sure there is an improvement 
in the situation. To what do we think we can attribute the 
effort that led to that reduction?
    Dr. Finkelhor. One of the things that we found was that 
young people, between 2000 and 2005, when we did our two 
surveys, reported they were going to chat rooms less, that they 
were talking to people that they don't know less, and it 
suggested that actually they had gotten some of the prevention 
education messages that we had been putting out, and that was 
the good news.
    I don't want to put too much stock in the decline from the 
one in five to the one in seven. We didn't see a change in the 
number of kids who were experiencing what we call ``aggressive 
solicitations.'' Those were the really endangering ones, where 
the person who was soliciting them tried to make contact with 
them offline, in addition to the computer communication. That 
stayed at around 4 percent. Those are the ones that concern me, 
that one in 20. Most of the kids are handling those pretty 
well, the other ones, that don't involve these aggressive 
solicitations. Unfortunately, the aggressive solicitations did 
not decline.
    Senator Cantwell. And, Mr. Allen, I'm assuming that the 
National Center does work with the International Center on----
    Mr. Allen. Yes.
    Senator Cantwell.--on these efforts, since the Internet is 
global and----
    Mr. Allen. Absolutely.
    Senator Cantwell.--and so, that connectivity issue and data 
storage issue is being addressed on an international basis, 
because you don't want to just chase the problem to some server 
somewhere else that isn't regulated. So, are we working on 
that, on an international basis?
    Mr. Allen. Senator Cantwell, we're working on it. In fact, 
you helped us launch our partnership with Interpol on that. The 
great challenge, internationally, is that we reviewed the law 
in the 186 member countries of Interpol, and we found that 95 
of them have no law at all, child pornography is not even a 
crime. And in 136 of the member countries of Interpol, the 
possession of child pornography is not a crime. It is a real 
challenge, because, in much of the world--this is now an issue 
in which Eastern European organized crime is very much 
involved, because it's so easy and so profitable. And we have 
great work we need to do work to change the law around the 
world and build capacity. With Interpol, we've now trained law 
enforcement in 100 countries to build capacity----
    Senator Cantwell. And do----
    Mr. Allen.--but there's a long way----
    Senator Cantwell. And do you have----
    Mr. Allen.--to go.
    Senator Cantwell. And do you have data from that, Mr. 
Allen, about the success of that? Do you have any statistics 
from that?
    Mr. Allen. From the legislative research?
    Senator Cantwell. No, from that 2004 Interpol effort of 
training law enforcement to identify an online crime scene, so 
they could better find the perpetrators. That training, which I 
did applaud, I thought was a useful effort, particularly given, 
again, that so much of these activities, from an international 
basis, are going to impact us here in the United States. We can 
do a really good job of trying to clean things up here, but, if 
we're seeing Websites, you know, from all over the globe----
    Mr. Allen. Absolutely. We----
    Senator Cantwell. So----
    Mr. Allen.--can certainly get you the data that was 
generated.
    Senator Cantwell. So, do you think that that's worked, 
this--here's my point. I think everybody's doing great work, 
but we definitely have an enormous task in front of us, and 
we're only going to have increases in communication and 
technology. We do want to use that to our advantage. But, 
measuring what--to the best of our degree--what is being 
successful, so that we can invest more in it, I think, is 
critical, at this early stage.
    Mr. Allen. I agree. And there's very little research, or 
very little empirical data, on this issue outside the United 
States, and that's a real challenge.
    Dr. Finkelhor. And even the information that we have within 
the United States, I'm afraid, is woefully inadequate, in many 
respects, for tracking what's going on. I would just contrast 
the information that we have on infectious diseases, for 
example, which are another threat to the public, but we have 
tremendous information about infectious agents and accidents 
that we can track, over time, to see how we're doing. In the 
crimes-against-children area, we are woefully lacking, with 
just general epidemiological information, on some of the things 
that are most frightening to families, like abductions and 
Internet crimes against kids, and we could really improve. And 
it would answer some of the questions that you're interested 
in, I think.
    Senator Cantwell. Well, I think it's very important.
    Again, Mr. Chairman, thank you for the hearing, and thank 
everybody on the panel for your hard work. But we obviously 
have a lot more work to do.
    Thank you.
    The Chairman. Thank you very much.
    I've been listening intently to the testimony. And, 
according to reports that we have gathered, about 5 years ago 
there were about 100,000 child pornography Websites. Today, I 
think they get close to 400,000. At the same time, over 70 
percent of children, teenagers, preteenagers, have viewed child 
pornography on the Internet. At the same time, we have 
statistics that suggest that the American family, 67 percent 
have both parents living with their children, the remainder are 
either living in homes, institutions, or with single parents, 
or with grandparents. At the same time, statistics suggest to 
us that most of these single parents are so overwhelmed with 
trying to make a living, they spend very little time with their 
kids. And I believe in parental involvement, but these numbers 
suggest that, for many of our kids, parental involvement does 
not exist. And so, I am concerned about what the Federal 
District Court in Utah did--making one of those laws 
unconstitutional. What I'd like to know is, What can we do--and 
maybe this is in the jurisdiction of the Judiciary Committee--
to toughen the laws?
    Now, for the record, what are the punishments that we have 
in the books, at this time?
    Mr. Allen. Well, Senator, the Congress, certainly on 
Federal offenses, over the past several years has increased 
penalties significantly. And I think that's been a huge step 
forward. The States have some more work to do.
    On the issue you raised about the Utah court decision, my 
reaction certainly is one of discouragement. This Congress has 
tried very hard to address this issue with governmental 
solutions, limiting the access, filtering and blocking and 
keeping kids from reaching this kind of content, or content 
reaching them.
    Frankly, I think my judgment is that one of the things this 
Commerce Committee can do is to encourage and promote more 
private-sector innovation, because there are tools that are 
being developed. Ms. Jones talked about some of the leadership 
within the technology industry. I think there are tools that 
are being developed on the private side that should be 
encouraged, should be examined, and we should begin to try to 
implement them.
    Frankly, the courts have sent a pretty loud-and-clear 
message, and that message is, they're going to look very 
carefully at governmental regulatory mandates in some of the 
areas. And I think what the Congress has to do is look for a 
balanced approach, not that previous approaches weren't--but a 
more balanced approach that put greater emphasis on private-
sector tools and private-sector innovation.
    The Chairman. How can we convince our parents that what is 
involved here is serious, dangerous, and will just eventually 
break up families? What can we do? Can we do anything, 
legislatively?
    Mr. Allen. Well, Mr. Chairman, our view, from the 
beginning, has been that this is a three-pronged process. One, 
the kind of activity we're talking about, almost without 
exception, is illegal. And so, I think law enforcement--an 
increased emphasis on law enforcement to identify those who are 
misusing the Internet for unlawful purposes, is more important 
than ever before.
    Second, I think we have to continue the drumbeat to try to 
motivate America's parents, and awaken them. We live in a 
unique time, in which kids know more about a transcendent 
technology in our lives than do their parents. There are some 
terrific models and programs out here. Jackie Leavitt, the wife 
of the HHS Secretary, is here with us this morning. She has 
mobilized the Nation's first ladies around a program called 
iKeep Safe. There is a terrific training program that's gone 
into schools across the country, called i-SAFE. We, at the 
National Center, created, with Boys and Girls Clubs of America, 
an interactive online educational tool, called NetSmartz, with 
animation for younger kids. There are great tools out there. 
The Virginia model of mainstreaming it, of institutionalizing 
it, for making it a part of ongoing educational curricula, I 
think, is real important. So, we have to continue to emphasize 
and promote prevention and education.
    But, third, I think the ultimate answer to a lot of this 
problem, frankly, is rooted in technology. The softwares have 
not yet been developed that can automatically identify, 
interdict, prevent certain kinds of issues. Members of this 
Committee talked, this morning, about the concern about a 
hands-off approach. I think if we continue to promote 
technology innovation to develop tools that can be used to 
prevent the most heinous of these problems, while emphasizing 
education in the classroom as an ongoing and integral part of 
what kids are taught and what they learn, continue the efforts 
to reach out to parents, recognize it's hard, but we've got to 
do it, and then give law enforcement the tools and the 
resources they need to go after, and prosecute, the ``bad 
guys''. The good news is, there have been thousands of them 
brought to justice. The bad news is, there are far more of them 
than we thought there were. And the reality is, as someone 
raised earlier, the Internet does create a situation where 
people can be anonymous, they can fantasize in the privacy of 
their own homes, they have little risk of detection. That's 
something we have to deal with.
    The Chairman. Any closing remarks here?
    Miss America?
    Ms. Nelson. Again, thank you for the opportunity for 
allowing me to be here to speak on this issue. I feel that the 
legislation has been put in place, that there are things being 
done that are the step in the right direction, but there is 
more that we can do. Again, I want to promote education, 
because I feel that education on this issue will help to keep 
our kids, and help them from being the victims in the first 
place. If we can police the Internet on our side of the 
keyboard, I think that's the best way to go about this issue.
    The Chairman. Thank you.
    Dr. Finkelhor?
    Dr. Finkelhor. I want to thank you, also, for the 
opportunity to address the Committee, and also appreciate your 
interest in this topic.
    My final remark is that the vulnerability of children on 
the Internet is an extension of their vulnerability in every 
aspect of their lives, and we should not ignore that, as well, 
as we try to face the risks that are posed online. But children 
are still being bullied in school, sexually abused in their 
families, and they are still witnessing domestic violence in 
their homes. And this is all part of one fabric and in order to 
address victimization online, we also need to address some of 
these other issues, as well.
    The Chairman. Mr. Allen?
    Mr. Allen. Just, finally, Mr. Chairman, thank you for the 
opportunity, and thank you for your extraordinary leadership 
and commitment on this issue. This is timely, and it's 
important.
    The Chairman. Mr. Neugent?
    Mr. Neugent. Thank you, Mr. Chairman, also, for allowing me 
to speak today. I do believe that education is one of the 
answers, and we will continue to pursue that in Virginia. We 
will continue to work with the attorney general's task force. 
And we hope, at some point, to have information to show that, 
in effect, our programs are working.
    Thank you very much.
    The Chairman. Ms. Jones?
    Ms. Jones. Thank you, Mr. Chairman.
    I'm sure you know, but your staff, James Assey and Margaret 
Cummisky and the people that work behind you, are tirelessly 
pursuing this, that the staff members of every Committee member 
here that we've met with who pursue this issue are. We are 
profoundly grateful for that, because, we feel like we're out 
on the front line, trying to defend this thing. It's nice to 
know that somebody in Washington is paying attention to it.
    It seems like a noncontroversial issue, nonpartisan. Nobody 
thinks child predators are a good idea. So, we would continue 
to urge passage of the McCain-Schumer child pornography bill, 
the bill that Senator Pryor mentioned, in regards to online 
parental controls. Any of the tools that are small steps in the 
overall solution, we would encourage this Committee to continue 
to pursue.
    But, most importantly, just thank you so much for taking a 
look at the issue and for making it a priority at the end of a 
session and on a hot summer day, when you might be off doing 
something else. So, we are just profoundly grateful for that.
    Thank you.
    The Chairman. Obviously, there's much to be done. And we're 
not quite knowledgeable as to what should be done.
    But, Mr. Allen, we will find out. And I promise all of you 
that we'll make it tougher, we'll get more parents involved, 
we'll have PTAs involved. And that has been a concern of mine. 
I used to attend PTA meetings, as a Member of Congress, which 
meant I had to miss some votes. But, today, in a school of, 
say, 500 children, if you have 50 parents at a PTA meeting, you 
are doing very well, which is sad. It wasn't so in my days of 
youth. But I suppose, with all the advancement and technology 
advancements, we don't need these things. But I think they're 
wrong. Parents must get involved.
    And I thank you all very much for your contribution.
    The session is adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
